No. ________

IN THE

Supreme Court of the United States

d

CHRISTIANA TAH ; RANDOLPH MC CLAIN ,
Petitioners,

—v.—

GLOBAL WITNESS PUBLISHING , INC ., GLOBAL WITNESS ,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE DISTRICT OF COLUMBIA

PETITION FOR WRIT OF CERTIORARI

RODNEY A. SMOLLA
Counsel of Record
4601 Concord Pike
Wilmington, Delaware 19803
(864) 373-3882
rodsmolla@gmail.com
ARTHUR V. MEDEL
MEDEL SANFILIPO
1701 Pennsylvania Avenue, N.W.,
Suite 200
Washington, D.C. 20006
(703) 945-9137
avmedel@medsanlaw.net
Counsel for Petitioners

i
QUESTION PRESENTED
Whether a complaint by a public plaintiff alleging
defamation sufficiently pleads actual malice, in the
absence of direct evidence, by presenting detailed
factual allegations from which, when collectively
considered, actual malice could plausibly be inferred.

ii
LIST OF PARTIES
The Petitioners Christiana Tah and Randolph
McClain are individuals.
The Respondents are Global Witness Publishing
Inc., incorporated in the District of Columbia, and
Global Witness, incorporated in the United Kingdom.
STATEMENT OF RELATED CASES
There are no related cases.

iii
TABLE OF CONTENTS

PAGE

QUESTION PRESENTED . . . . . . . . . . . . . . . . . . .

i

LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . .

ii

STATEMENT OF RELATED CASES . . . . . . . . .

ii

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . .

vi

OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . .

1

JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

CONSTITUTIONAL AND FEDERAL RULES
PROVISIONS INVOLVED . . . . . . . . . . . . . . .

1

STATEMENT OF THE CASE . . . . . . . . . . . . . . . .

2

A. Introduction . . . . . . . . . . . . . . . . . . . . . . . . . .

2

B. Factual and Procedural Background . . . .

5

REASONS FOR GRANTING THE WRIT . . . . .

13

A. Public Plaintiffs Face an Almost Impossible
Hurdle in Surviving a Rule (12)(b)(6)
Motion on Actual Malice Under Iqbal
and Twombly . . . . . . . . . . . . . . . . . . . . . . . . .
13
B. Discovery is Essential to a Fair Playing
Field . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

13

C. The D.C. Circuit’s Decision Conflicts with
the Second Circuit’s Decision in Palin . .

16

iv
PAGE

D. The Decision Below is an Exemplar of
Everything Federal Courts Should Not be
Permitted to Do Under the First Amendment
or Federal Pleading Standards . . . . . . . . .

18

E. In Shutting Out the Vast Majority of
Public Plaintiff Cases the Current Regime
Undermines Both Society’s Interest in
Protecting Reputation and the Quality
of Public Discourse . . . . . . . . . . . . . . . . . . . .

30

F. The Perils of Double Counting . . . . . . . . .

33

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

35

v
APPENDIX TABLE OF CONTENTS
APPENDIX A: Opinion of the U.S. Court of
Appeals for the District of Columbia,
dated March 19, 2021, with Dissenting
Opinion of Senior Circuit Judge
Silberman . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

PAGE

1a

APPENDIX B: Memorandum Opinion of the U.S.
District Court for the District of Columbia,
dated September 27, 2019 . . . . . . . . . . . . . . . .
48a

vi
TABLE OF AUTHORITIES

PAGE(S)

Cases
Abbas v. Foreign Policy Grp., LLC,
783 F.3d 1328 (D.C. Cir. 2015) ......................

11

Ashcroft v. Iqbal,
556 U.S. 662 (2009) ........................................

3

Bell Atlantic Corporation v. Twombly,
550 U.S. 544 (2007) ........................................

3

Berisha v. Lawson,
141 S.Ct. 2424 (2021) .................................... passim
Biro v. Condé Nast,
807 F.3d 541 (2d Cir. 2015) ............................

13

Calder v. Jones,
465 U.S. 783 (1984) ........................................

34

Competitive Enterprise Institute v. Mann,
150 A.3d 1213 (D.C. 2016), cert. denied,
National Review, Inc. v. Mann,
1404 S.Ct. 344 (2019) .....................................

11

Eastwood v. National Enquirer, Inc.,
123 F.3d 1249 (9th Cir. 1997) ........................

15

Flowers v. Carville,
310 F.3d 1118 (9th Cir. 2002) ........................ 14, 16
Gertz v. Robert Welch, Inc.,
418 U.S. 323 (1974) ........................................ 31, 32
Godin v. Schencks,
629 F.3d 79 (1st Cir.2010) ..............................

11

vii
PAGE(S)

Harte-Hanks Communications Inc.
v. Connaughton,
491 U.S. 657 (1989) ........................................ 24, 28
Herbert v. Lando,
441 U.S. 153 (1979) .................................. 14, 28, 31
Hutchinson v. Proxmire,
443 U.S. 111 (1979) ........................................

14

Keeton v. Hustler Magazine, Inc.,
465 U.S. 770 (1984) ........................................ 32, 33
Masson v. New Yorker Magazine, Inc.,
501 U.S. 496 (1991) ........................................

2

Mayfield v. National Association for
Stock Car Auto Racing, Inc.,
674 F.3d 369 (4th Cir. 2012) ..........................

13

McKee v. Cosby,
139 S. Ct. 675 (2019) ...................................... 2, 13
Metabolife International, Inc. v. Wornick,
264 F.3d 832 (9th Cir. 2001) ..........................

14

Michel v. NYP Holdings, Inc.,
816 F.3d 686 (11th Cir. 2016) ........................ 13, 33
New York Times Co. v. Sullivan,
376 U.S. 254 (1964) ........................................

2

United States ex rel. Newsham
v. Lockheed Missiles & Space Co.,
190 F.3d 963 (9th Cir.1999) ...........................

11

Palin v. New York Times Co.,
940 F.3d 804 (2d Cir. 2019) .................. 3, 16, 17, 18

viii
PAGE(S)

Pippen v. NBCUniversal Media, LLC,
734 F.3d 610 (7th Cir. 2013) ..........................

13

Schatz v. Republican State Leadership Committee,
669 F.3d 50 (1st Cir. 2012) .............................
13
Tavoulareas v. Piro,
759 F.2d 90, 98 (D.C. Cir. 1985), vacated
and superseded on other grounds by
Tavoulareas v. Piro, 817 F.2d 762
(D.C. Cir. 1987), cert. denied,
484 U.S. 870 (1987). ....................................... 27, 28
Statutes
28 U.S.C. § 1254(1) ..............................................

1

D.C. Code § 16-5502(a), District of Columbia
Anti-SLAPP Act of 2010, ................................

10

Constitutional Provisions
Constitution of the United States,
First Amendment .......................................... passim
Rules
Fed. R. Civ. P. 8(a)(2)...........................................

1

Fed. R. Civ. P. 12(b)(6).........................................

17

Other Authorities
David Anderson, Is Libel Law Worth Reforming?,
140 U. Pa. L. Rev. 487 (1991).........................

14

Catch me if you can Report published by Global
Witness, March 29, 2018 .............................. 6, 9, 29

ix
PAGE(S)

Clay Calvert, Emma Morehart, Sarah Papadelias,
Plausible Pleading & Media Defendant Status:
Fulfilled Promises, Unfinished Business in
Libel Law on the Golden Anniversary of
Sullivan, 49 Wake Forest L. Rev. 47
(2014). .............................................................
13
Judy M. Cornett, Pleading Actual Malice in
Defamation Actions After Twiqbal: A Circuit
Survey, 17 Nev. L.J. 709 (2017) .....................

15

Richard Epstein Was New York Times v. Sullivan
Wrong?, 53 U. Chi. L. Rev. 782 (1986) ...........
33
Elena Kagan, A Libel Story: Sullivan Then
and Now, 18 Law and Social Inquiry 197
(1993) ..............................................................

30

Leslie Kendrick, Speech, Intent, and the
Chilling Effect, 54 Wm. & Mary L. Rev. 1633
(2013) ..............................................................

14

Anthony Lewis, Make No Law: The Sullivan
Case and the First Amendment (1991) ..........

30

Matthew Schafer, Ten Years Later: Pleading
Standards and Actual Malice, Comm. Law,
Winter 2020 ....................................................

15

Rodney A. Smolla, Law of Defamation
§ 1:27.50 (2021 ed.) .........................................

32

Russell L. Weaver & Geoffrey Bennett, Is the
New York Times “Actual Malice” Standard
Really Necessary? A Comparative Perspective,
53 La. L. Rev. 1153 (1993) .............................

14

1
OPINIONS BELOW
The Opinion of the United States Court of Appeals
for the District of Columbia Circuit is reported at 991
F.3d 231 (D.C. Cir. 2021). App. 1. The Opinion of the
District Court is reported at 413 F. Supp. 3d 1
(D.D.C. 2019). App. 48.
JURISDICTION
The judgment of the Court of Appeals was entered
on March 19, 2021. This Petition is timely filed
within 150 days of that decision, as required by this
Court’s March 19, 2020 Order concerning the
extension of time to file a petition for a writ of
certiorari. This Court has jurisdiction under 28
U.S.C. § 1254(1).
CONSTITUTIONAL AND FEDERAL RULES
PROVISIONS INVOLVED
The First Amendment to the Constitution of the
United States provides:
Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof; or abridging the
freedom of speech, or of the press, or the
right of the people peaceably to assemble,
and to petition the Government for a redress
of grievances.
Federal Rule of Civil Procedure 8(a)(2) provides
that a Claim for Relief must contain: “a short and
plain statement of the claim showing that the pleader
is entitled to relief . . .”

2
STATEMENT OF THE CASE
A. Introduction
This case presents the Court with an opportunity
to make a long-overdue adjustment to the application
of the First Amendment in defamation suits. This
Court has not elaborated on the First Amendment
“actual malice” defamation standard for thirty years.
See Masson v. New Yorker Magazine, Inc., 501 U.S.
496 (1991). No current sitting Justice was on the
Court when Masson was decided.
The actual malice standard created in New York
Times Co. v. Sullivan, 376 U.S. 254 (1964), has
recently been called into question, including a
dissenting opinion by Justice Gorsuch, Berisha v.
Lawson, 141 S.Ct. 2424, 2425 (2021) (Gorsuch, J.,
dissenting from the denial of certiorari); two opinions
by Justice Thomas, Id. at 2424 (Thomas, J.,
dissenting from the denial of certiorari), McKee v.
Cosby, 139 S. Ct. 675 (2019) (Thomas, J., concurring
in the denial of certiorari); and the dissenting opinion
from Judge Silberman below, Tah v. Global Witness,
App. 21-47 (Silberman J., dissenting).
While some call for an outright rejection of
Sullivan and the actual malice test, this Petition
offers the Court the opportunity to make a critical
and long-overdue adjustment to how the Sullivan
standard is applied in the real world of federal
defamation litigation without overruling Sullivan or
entirely discarding the actual malice standard.
The actual malice standard is daunting enough on
its own. The one fighting chance plaintiffs do have in
actual malice cases, however, is to uncover evidence
of knowledge of falsity or reckless disregard for truth
or falsity through discovery. Given the subjective

3
nature of actual malice, and the reality that evidence
will almost always be within the exclusive possession
of the defendant, plaintiffs rarely possess direct
evidence of actual malice at the pleading stage.
What plaintiffs may possess, however, are detailed
facts from which actual malice could plausibly be
inferred. These facts seldom, in themselves,
constitute direct “smoking gun” clear and convincing
evidence of actual malice. Indeed, when such facts
are available, cases typically settle without resort to
litigation. But often, plaintiffs do possess and plead,
as Tah and McClain in this case did possess and
plead, facts that are both highly suspicious and give
rise to a plausible inference of actual malice.
This pragmatic real-world litigation dynamic in
turn places enormous stress on the proper
interpretation of the federal “plausibility” pleading
standard articulated in Bell Atlantic Corporation v.
Twombly, 550 U.S. 544 (2007) and Ashcroft v. Iqbal,
556 U.S. 662 (2009).
The decision below is emblematic of similar
decisions by other Courts of Appeal applying
Twombly and Iqbal in federal diversity defamation
cases in a manner that effectively creates absolute
immunity from defamation liability in all actual
malice cases. There is one conflicting counterexample, a recent decision by the Second Circuit in
Palin v. New York Times Co., 940 F.3d 804 (2d Cir.
2019). This Petition demonstrates the conflict
between Palin and the decision below, and other
Circuit decisions aligned with it.
In the words of Justice Gorsuch, “over time the
actual malice standard has evolved from a high bar to
recovery into an effective immunity from liability.”
Berisha, 141 S.Ct. at 2428 (Gorsuch, J.) Yet surely

4
this Court never envisioned the Sullivan standard as
an absolute end to defamation law in public plaintiff
cases. And surely this Court never anticipated that
Twombly and Iqbal would effectively end public
plaintiff defamation cases in the federal system. Yet
this “combination of ingredients” has led to this
outcome. Two medications prescribed by a physician
may each, considered alone, promise positive results.
The unintended consequence of prescribing those two
medications in combination, however, may create
severely injurious or even lethal consequences as the
two medications interact.
The actual malice standard adopted in Sullivan
and the plausibility standard adopted in Twombly
and Iqbal are both judicially crafted doctrines of this
Court’s own invention. Each doctrine may continue to
make sense considered on its own terms, and this
Petition does not invite the Court to invoke a nuclear
option, abandoning either the actual malice or
plausible pleading standards. This Petition does
present, however, the ideal vehicle for the Court to
instruct lower courts on how to apply Twombly and
Iqbal in First Amendment actual malice cases. Quite
simply, something must give. “Rules intended to
ensure a robust debate over actions taken by high
public officials carrying out the public’s business
increasingly seem to leave even ordinary Americans
without recourse for grievous defamation.” Berisha,
141 S.Ct. at 2429 (Gorsuch, J.)
The dissenting opinion of Judge Silberman below
demonstrated fact-by-fact and issue-by-issue how the
Majority did exactly what federal courts should not
do at the pleading stage. Courts should not pick apart
in a “divide and conquer” tactic each discrete
allegation, holding that standing alone the allegation
does not in itself prove actual malice. Nor, once a

5
court determines that a complaint states facts which
give rise to a plausible inference of actual malice,
should a complaint be dismissed because a court
regards a defendant’s alternative exculpatory theory
more plausible.
This Court should announce this rule: A complaint
by a public plaintiff alleging defamation sufficiently
pleads actual malice, even in the absence of direct
evidence, by presenting detailed factual allegations
from which, when collectively considered, actual
malice could plausibly be inferred.
This Court should proceed to apply the rule by
following Judge Silberman’s roadmap, demonstrating
to lower courts what the rule means in practical
application, by holding that when plaintiffs allege
facts plausibly probative of the existence of actual
malice, as Tah and McClain have, dismissal is not
permitted.
B. Factual and Procedural Background
In a long and distinguished career as a public
servant in Liberia, Petitioner Christiana Tah
occupied many government positions. In 2009, Tah
was appointed Attorney General and Minister of
Justice for Liberia by Liberian President Ellen
Johnson Sirleaf, the first female African head of
state, winner of the Nobel Peace Prize, and awardee
of the American Presidential Medal of Freedom.
Complaint ¶ 2.
Petitioner Randolph McClain was born in Liberia.
He was educated in the United States, and had a long
and distinguished career with the DuPont Company
and DAK Americas, occupying numerous positions of
scientific and business leadership. Following his
retirement from DuPont and DAK Americas, McClain

6
returned to his native Liberia to offer leadership and
public service. His service included the position of
Chairman
of
the
Board
of
the
Liberia
Telecommunications Corporation, and (of prime
importance here) the position of President and Chief
Executive Officer of the National Oil Company of
Liberia (“NOCAL”), and Chairman of Liberia’s
Hydrocarbon
Technical
Committee.
(“HTC”)
Complaint ¶ 3.
Global Witness is an international human rights
watchdog organization. App. 2. This action arises
from the publication of a report by Global Witness in
March of 2018, entitled: Catch me if you can
(“Report”). Tah and McClain alleged that the Report
falsely accused them of accepting bribes and engaging
in corruption in connection with an oil transaction
between Liberia and Exxon Mobil Corporation
(“Exxon”).
The Catch me if you can Report chronicled the
acquisition by Exxon of an offshore oil “production
sharing contract” license in the waters off the coast of
Liberia, known as “Block 13.” Block 13 is a
rectangular plot of territory in the ocean waters off
the coast of Liberia owned by the nation of Liberia
that potentially held valuable oil reserves.
Ultimately, Block 13 failed to produce oil. App. 3.
NOCAL is a governmental corporation created
pursuant to Liberia’s Petroleum Law, responsible for
the award of oil licenses. Its mission is to develop
Liberia’s hydrocarbon potentials for national selfsufficiency and sustainable development. In 2007,
Liberia first licensed the production sharing contract
rights to Block 13 to a company with both British and
Liberian ties that was originally called Broadway
Consolidated PLC, and later Peppercoast Petroleum

7
PLC. In 2010, it was determined that Broadway
Consolidated was in default of certain terms in the
production sharing contract with Liberia. App. 3.
In the wake of Broadway Consolidated’s default,
Tah and other Liberian officials, following the advice
of outside legal counsel, decided to seek an outside
buyer to come in and purchase the production
sharing contract rights of Block 13 from Broadway
Consolidated, on terms that would also be more
favorable to the government of Liberia.
This strategy was adopted, and Liberia, with the
aid of expert consultants, began the process of
seeking prospective purchasers for Block 13. Exxon
emerged as the prospective purchaser, and
negotiations commenced. The negotiations led to an
historic agreement in which Exxon would pay a
substantial sum for the purchase of the production
sharing contract for Block 13, a total of $120 million,
of which $50 million would go directly to Liberia
itself. App 3.
In its entire history, Liberia had never received a
payment of such magnitude for the rights to extract
natural resources. President Sirleaf and others
within the Liberian government saw the Exxon deal
as an historic victory for the Liberian people, in
which the government of Liberia would for the first
time receive a substantial payment for the sale of
extraction rights. The Exxon deal was to serve as a
model for all future contracts of this nature.
Upon completion of the contract between Liberia
and Exxon, Liberian President Sirleaf instructed the
Board of NOCAL (“the Board”), to distribute bonuses
to all who assisted in concluding the deal. App. 50.
McClain, as Secretary of the Board sought legal
advice on the propriety under Liberian law of paying

8
bonuses as President Sirleaf had directed. The Board
was advised that bonus payments were legally
permissible. The Board then met to determine the
recipients and amounts of the bonuses. The Board
resolved to award bonuses to all employees of
NOCAL, to all members of the Hydrocarbon
Technical Committee, and to the five consultants who
had assisted the Committee in the negotiation of the
contract. The entire amount paid in bonuses totaled
approximately $500,000. This was 1% of the $50
million premium that Exxon had paid to the Liberian
goverment for the Block 13 rights. The seven
negotiating team members of the Hydrocarbon
Technical Committee, including Tah and McClain,
received bonuses of $35,000 each. The five
consultants were each sent bonuses of $15,000. The
remaining balance of the $500,000, approximately
$290,000, was distributed to all other NOCAL
employees, numbering over 140 persons, including
office staff, custodial workers, and drivers. App. 4.
In March 2018, Global Witness, on the verge of
publication, sent letters to Tah, McClain, and others
stating its conclusion that the payments were bribes,
and demanding any reaction within seven days. Six
individuals provided detailed responses. Four of those
who responded were members of the Hydrocarbon
Technical Committee and two were external
consultants, including Jeff Wood, an American
consultant hired by Liberia to assist in the
negotiations with Exxon. While Tah, McClain, and
others were outraged that Global Witness had
already made up its mind that the payments were
bribes, they nonetheless did reply, explaining in
detail that the payments were bonuses entirely
consistent with Liberian law, paid in appreciation for
the historic success achieved through the Exxon

9
contract. Jeff Wood’s response was particularly
important, in that it explained the inherent
improbability of the Global Witness bribery
accusation, noting that the distribution of bonus
payments to all employees of NOCAL was entirely
inconsistent with the notion that the payments were
bribes, and explaining in addition that the reason no
similar payments had ever been made before was
that no such successful deal benefiting Liberia had
ever been concluded before. App. 6, 30-31.
On March 29, 2018, Global Witness published its
Catch me if you can Report. The Report exploded like
a bomb within Liberia and among members of the
Liberian community world-wide. The Report accused
Tah, McClain, and others of bribery to facilitate the
Exxon deal, wreaking havoc to their reputations.
George Manneh Weah succeeded Ellen Sirleaf as
the President of Liberia in 2018. Following
publication of the Catch me if you can Report,
President Weah appointed a Special Presidential
Committee to investigate the allegations of bribery
against Tah, McClain, and others identified in the
Global Witness Report. The Special Presidential
Committee issued its findings on May 10, 2018. The
Special Committee Report unequivocally renounced
the bribery allegations contained in the Global
Witness Report as false. App. 54.
Armed with a finding by the Liberian government
that the accusations of bribery by Global Witness
were false, Tah and McClain commenced this action
for defamation and false light invasion of privacy.
The overarching theory of the Complaint was that
Global Witness was fixated on a pre-determined
story-line to bring down Exxon and Rex Tillerson,
then the new U.S. Secretary of State, by advancing

10
the story that the Block 13 deal was corrupt and
laced with bribery. That headlong fixation led to
reckless disregard for the truth. Global Witness made
a faint covering gesture to seek comment from those
whom it was accusing at the eleventh hour, in emails
that admitted that Global Witness had already made
up its mind that Tah, McClain, and others had
received bribes.
The Global Witness story was inherently
improbable. The Global Witness Report itself
admitted that it had no evidence that Exxon directed
or knew about payments to government officials.
Liberian officials, including all of the employees at
NOCAL, had no reason to bribe themselves. The
careful wordsmithing of the Global Witness Report,
in which it studiously avoided ever actually asserting
that bribery existed, while nonetheless making it
clear to readers that it believed the payments were
bribes, underscored the existence of actual malice, by
communicating to readers the impression that it
knew that bribes existed, when in fact it knew that it
did not know.
Global Witness responded by filing an “antiSLAPP” motion under the District of Columbia AntiSLAPP Act of 2010, D.C. Code § 16-5502(a). The antiSLAPP motion, which if granted would have saddled
Tah and McClain with Global Witness’s attorney’s
fees, was accompanied by a motion to dismiss. The
substance of Global Witness’s motion to dismiss was
that the Report was not capable of conveying the
defamatory meaning or the “false light” alleged, and
secondarily, that even if capable of being construed as
defamatory, the Complaint failed to plausibly allege
actual malice.

11
Tah and McClain prevailed on the anti-SLAPP
issue. In Abbas v. Foreign Policy Grp., LLC, 783 F.3d
1328 (D.C. Cir. 2015), the D.C. Circuit, in an opinion
written by now-Justice and then-Judge Kavanaugh,
held that the District’s anti-SLAPP law could not be
applied to federal courts siting in diversity, because
application of the anti-SLAPP law conflicted with the
Federal Rules of Civil Procedure. The Abbas ruling
created a federal circuit split, which this Court has
yet to resolve. See Godin v. Schencks, 629 F.3d 79, 81,
92 (1st Cir.2010) (applying Maine’s anti-SLAPP law
in a federal diversity case); United States ex rel.
Newsham v. Lockheed Missiles & Space Co., 190 F.3d
963, 973 (9th Cir.1999) (holding that California’s
anti-SLAPP law applies in federal diversity cases).
Global Witness argued that the Abbas decision had
been rendered erroneous by a subsequent decision of
the District of Columbia Court of Appeals,
Competitive Enterprise Institute v. Mann, 150 A.3d
1213 (D.C. 2016), cert. denied, National Review, Inc.
v. Mann, 1404 S.Ct. 344 (2019). The courts below
rejected that assertion by Global Witness.
Turning to the merits, both courts below also
rejected the first line of defense interposed by Global
Witness, finding that average readers would have
understood the Global Witness Report as asserting
that Tah and McClain had accepted bribes. Both
courts also accepted the allegations in the Complaint
that the bribery allegations were false, a conclusion
buttressed by the findings of the Special Commission
appointed by the Liberian government. App. 22, 5966.
Both courts below nonetheless held that dismissal
was warranted because Tah and McClain had failed
to plausibly plead actual malice. The Majority opinion
for the Court of Appeals panel refused to find the

12
Global Witness story inherently improbable. The
Majority refused to credit the argument that actual
malice could plausibly be inferred from allegations
that Global Witness pursued a pre-conceived story
line; that Global Witness turned a blind eye to the
detailed refutations of its story presented by Tah,
McClain, Jeff Woods, and others; that the failure of
the Report to include in its narrative the fact that the
legal advisor to President Sirleaf was among those
paid a bonus; and that Global Witness published its
sensational bombshell story because it was motivated
by a subjective fixation on catching Exxon and its
former CEO Rex Tillerson in scandal. App. 13-20; 6672.
Judge Silberman dissented. Judge Silberman
deemed the Global Witness story inherently
improbable. He credited the claim by Tah and
McClain that Global Witness subjectively knew that
it had not been able to determine whether the
payments were corrupt bribery payments, yet
proceeded to present to readers the defamatory
message that Tah and McClain had taken bribes.
App. 26-37. Judge Silberman also took issue with the
Majority’s view that a publisher “need not accept
denials.” He argued that the content of the denials
are what matters, and that Global Witness had been
provided with detailed explanations refuting its
bribery accusations, with no evidence and no
witnesses on the other side. Judge Silberman
asserted that the cumulative balance of the evidence
gave “Global Witness obvious reasons for doubt.” App.
33-34.
This Petition ensued.

13
REASONS FOR GRANTING THE WRIT
A. Public
Plaintiffs
Face
an
Almost
Impossible Hurdle in Surviving a Rule
(12)(b)(6) Motion on Actual Malice Under
Iqbal and Twombly
As commentators have observed: “One might
wonder whether it is ever possible to survive a
12(b)(6) motion on the element of actual malice after
Iqbal and Twombly.” Clay Calvert, Emma Morehart,
Sarah Papadelias, Plausible Pleading & Media
Defendant Status: Fulfilled Promises, Unfinished
Business in Libel Law on the Golden Anniversary of
Sullivan, 49 Wake Forest L. Rev. 47, 69 (2014). While
the answer may not be “never,” it certainly is “hardly
ever.” See, e.g., Michel v. NYP Holdings, Inc., 816
F.3d 686 (11th Cir. 2016) (sustaining motion to
dismiss for failure to plausibly plead actual malice);
Biro v. Condé Nast, 807 F.3d 541 (2d Cir. 2015)
(same); Pippen v. NBCUniversal Media, LLC, 734
F.3d 610 (7th Cir. 2013) (same); Mayfield v. National
Association for Stock Car Auto Racing, Inc., 674 F.3d
369 (4th Cir. 2012) (same); Schatz v. Republican
State Leadership Committee, 669 F.3d 50 (1st Cir.
2012) (same).
Justice Thomas has correctly characterized the
current regime as imposing on public plaintiffs an
“‘almost impossible’ standard.” McKee, 139 S. Ct. 675,
quoting Dun & Bradstreet, Inc. v. Greenmoss
Builders, Inc., 472 U.S. 749, 771 (1985) (White, J.,
concurring in the judgment).
B. Discovery is Essential to a Fair Playing
Field
“New York Times and its progeny made it essential
to proving liability that the plaintiff focus on the

14
conduct and state of mind of the defendant.” Herbert
v. Lando, 441 U.S. 153, 160 (1979). In Hutchinson v.
Proxmire, 443 U.S. 111 (1979), this Court recognized
that “[t]he proof of ‘actual malice’ calls a defendant’s
state of mind into question . . . and does not readily
lend itself to summary disposition.” Id. 120, n.9. To
refit the famous sports adage, “Winning isn’t
everything; it’s the only thing,” in establishing actual
malice, “Discovery isn’t everything, it’s the only
thing.”
“[D]iscovery . . . is the only way to determine
whether a defendant acted knowingly or recklessly.”
Russell L. Weaver & Geoffrey Bennett, Is the New
York Times “Actual Malice” Standard Really
Necessary? A Comparative Perspective, 53 La. L. Rev.
1153, 1155 (1993) (emphasis added). Actual malice
presents “a question of fact, which justifies
exhaustive discovery into what information the
defendant had and what she did with it.” Leslie
Kendrick, Speech, Intent, and the Chilling Effect, 54
Wm. & Mary L. Rev. 1633, 1668-69 (2013).
Determining whether a defendant published with
actual malice “is a complex factual issue that
normally cannot be resolved without discovery.”
David Anderson, Is Libel Law Worth Reforming?, 140
U. Pa. L. Rev. 487, 511 (1991). As the Ninth Circuit
observed in Flowers v. Carville, 310 F.3d 1118 (9th
Cir. 2002), “the issue of ‘actual malice’ . . . cannot be
properly disposed of by a motion to dismiss in this
case, where there has been no discovery.” Id. at 1131.
See also Metabolife International, Inc. v. Wornick, 264
F.3d 832, 848 (9th Cir. 2001) (same).
At the pleading stage, however, details concerning
the defendant’s conduct and state of mind are largely
outside a plaintiff’s grasp. “Actual malice makes it
difficult to plead facts supporting a reasonable

15
inference of a plausible claim because it is a
demanding, subjective standard that does not readily
lend itself to proof through direct evidence.” Matthew
Schafer, Ten Years Later: Pleading Standards and
Actual Malice, Comm. Law, Winter 2020, at 1, 35.
Under the current regime, public plaintiffs effectively
have no chance. “Faced with a substantive standard
that, for good reason, is higher than normal, they are
also faced with a pleading standard that is virtually
insurmountable, for reasons that are unclear at best.”
Judy M. Cornett, Pleading Actual Malice in
Defamation Actions After Twiqbal: A Circuit Survey,
17 Nev. L.J. 709, 727 (2017).
The challenge for plaintiffs is that direct evidence
of actual malice virtually never exists in any serious
and significant defamation case. (If it does exist, the
case is typically not litigated, but settled.) Prior to
Twombly and Iqbal, the reality that plaintiffs must
always prove actual malice through indirect and
circumstantial evidence was well-recognized. As
Judge Kozinski wrote for the Ninth Circuit: “As we
have yet to see a defendant who admits to
entertaining serious subjective doubt about the
authenticity of an article it published, we must be
guided by circumstantial evidence. By examining the
editors’ actions we try to understand their motives.”
Eastwood v. National Enquirer, Inc., 123 F.3d 1249,
1253 (9th Cir. 1997). “The fact that we can’t look
inside the editors’ minds doesn’t stop us from
reaching conclusions about their thoughts; subjective
standards
are
nearly
always
satisfied
by
circumstantial proof (as in most
criminal
prosecutions).” Id. at 1256. n. 20. The orthodoxy thus
once was that plaintiffs were not punished at the
pleading stage for the inevitable disadvantage they
face in lack of access to evidence of a defendant’s

16
state of mind. “The First Amendment imposes
substantive requirements on the state of mind a
public figure must prove in order to recover for
defamation, but it doesn’t require him to prove that
state of mind in the complaint.” Flowers, 310 F.3d at
1130.
This is no longer true. Now, as Twombly and Iqbal
are currently being applied, public plaintiffs
effectively are saddled with proving state of mind in
the complaint, rendering the vast majority of
complaints dead on arrival. The door to defamation
recovery is effectively shut by the combination of the
pro-defendant gloss that has accreted to the actual
malice standard, and the accelerating willingness of
courts applying Twombly and Iqbal to demand of
plaintiffs the one thing they will virtually never
possess at the pleading stage without the benefit of
discovery—evidence of the subjective state of mind of
the publisher. “[T]he plaintiff may not know the
subjective state of the defendant’s mind at the time of
publication.” Cornett, supra, at 727. Whether a
defendant acted with actual malice “is usually solely
within the exclusive knowledge of the defendant.” Id.
(emphasis added).
C. The D.C. Circuit’s Decision Conflicts with
the Second Circuit’s Decision in Palin
In Palin v. New York Times Co., Sarah Palin, the
former Governor of Alaska and Republican nominee
for Vice President, brought a defamation action
against the New York Times. The opening sentence of
the Second Circuit’s decision in Palin could well be
the opening sentence for any description of the Tah
case here: “This case is ultimately about the First
Amendment, but the subject matter implicated in

17
this appeal is far less dramatic: rules of procedure
and pleading standards.” Palin, 940 F.3d at 807.
Judge Silberman in his dissent below correctly
observed that the Majority’s decision distorted both
the substantive meaning of the actual malice
standard under Sullivan and the proper role of courts
in ruling on Rule 12(b)(6) motions to dismiss in the
libel context, creating a conflict with the Second
Circuit’s ruling in Palin. App. 37.
The Second Circuit’s decision in Palin turned in
part on the error committed by the District Court in
holding an evidentiary hearing at the motion to
dismiss stage, a procedural turn that the Second
Circuit held ran “headlong into the federal rules.” Id.
at 810. “While we are cognizant of the difficult
determinations that Twombly and Iqbal often place
on district courts,” the Second Circuit observed, “the
district court’s gatekeeping procedures must
nevertheless comply with the Federal Rules of Civil
Procedure.” Id. at 812-13.
The Second Circuit also held that the district
court’s substantive analysis went beyond what was
permissible at the pleading stage, even after
Twombly and Iqbal. That is the portion of the Second
Circuit’s decision in Palin that cannot be reconciled
with the approach taken by the D.C. Circuit below in
Tah. Most critically for purposes of this Petition, the
Second Circuit held that at the pleading stage, the
defendant’s mere opportunity to obtain facts that
would have refuted the story was enough to give rise
to a permissible plausible inference that the
defendant did know those facts. It was thus error for
the district court to choose between the two possible
inferences, once innocent and one culpable. Id. at 814
(By crediting Bennet’s testimony, the district court

18
rejected a permissible inference . . . That Palin’s
complaint
sufficiently
alleges
that
Bennet’s
opportunity to know the journalistic consensus that
the connection was lacking gives rise to the inference
that he actually did know.”).
The Second Circuit similarly held that the district
court failed to properly credit the probative value of
allegations that political bias by the Times editor may
have led to reckless disregard for the truth, holding
that “[w]hen properly viewed in the plaintiff’s favor, a
reasonable factfinder could conclude this amounted to
more than a mistake due to a research failure.” Id. at
815. So too, the Second Circuit held that the district
court erred in adopting an innocent explanation for a
hyperlink connected to the article during the editorial
process, noting that the “inclusion of the hyperlinked
article gives rise to more than one plausible
inference, and any inference to be drawn from the
inclusion of the hyperlinked article was for the jury—
not the court.” Id. Finally, the Second Circuit
generally found the district court to have erred
because it consistently adopted the Times’ theories
over Palin’s theories. Id. As Judge Silberman
correctly observed in his dissent, the Majority below
simply substituted its theory of what Global Witness
had done with the theory advanced in the Complaint,
and decided that the Majority’s version was more
plausible than the theory advanced in the Complaint.
App. 34-36.
D. The Decision Below is an Exemplar of
Everything Federal Courts Should Not be
Permitted to Do Under the First Amendment
or Federal Pleading Standards.
Comparing Tah to Palin, it is plain that the Court
of Appeals in Tah did exactly what Palin held federal

19
courts may not do. The allegations in the Complaint
supporting the existence of actual malice were
factually detailed and dense, spanning some 19
paragraphs. They were far from formulaic recitations
of the elements of actual malice, or mere conclusory
and threadbare recitals.
The Petitioners understand that this Court does
not sit to resolve fact-intensive disputes over the
application of law to fact. That is not the purpose of
the presentation here. The specificity presented in
this Petition is rather offered to demonstrate the
futility of the current regime. The Petitioners’
Complaint provided an abundance of detail from
which actual malice could plausibly be inferred but
was still found wanting. The Complaint alleged:
Global Witness deliberately and callously
communicated to readers the defamatory
accusation that Christiana Tah and
Randolph McClain accepted a bribe even
though at the time of its publication of Catch
me if you can Global Witness was in
possession of ample information discrediting
the bribery allegation. Global Witness
subjectively knew that it had not been able to
determine whether or not the payments of
$35,000 to Christiana Tah and Randolph
McClain were corrupt bribery payments or
innocent and deserved bonuses. Yet without
resolving that subjective doubt, and
notwithstanding the material in its
possession that generated a high degree of
subjective awareness that its story was false,
Global Witness proceeded to present to
readers the defamatory message that in fact
Christiana Tah and Randolph McClain had
taken bribes. This behavior went beyond

20
ordinary negligence and escalated to
publishing the defamatory bribery falsehood
with knowledge of falsity or reckless
disregard for truth or falsity. To advance its
sensationalist agenda, Global Witness
presented to readers a bribery charge as if it
knew the charge to be true when in fact it
knew it did not know. Complaint, ¶ 85.
The imputations of bribery published by Global
Witness were inherently improbable. Moreover, prior
to publication, the fundamental flaws in the Global
Witness bribery thesis had been painstakingly
explained to Global Witness.
Judge Silberman’s dissent below persuasively
demonstrated the underlying incoherence of the
Global Witness Report. As the Complaint alleged,
and as the Liberian Government’s own investigation
found, from the beginning the real target of the
Global Witness Report was Exxon, and its former
CEO, the then new U.S. Secretary of State, Rex
Tillerson. The Complaint explained in elaborate
detail why the desire of Global Witness to catch
Exxon and Tillerson in scandal blinded Global
Witness to the truth. Complaint, ¶¶, 87-90. For Exxon
and Tillerson to be guilty of bribery, somebody had to
be bribed. App. 30.
Yet as the Complaint pointed out, Global Witness
had no evidence that Exxon itself directed or knew
about payments to officials. This was stated in the
Global Witness Report itself, and as pled in the
Complaint, was emphasized by other reportage
summarizing the Global Witness Report. Complaint,
¶ 73 (“The Newsweek article then channeled the
sinister suggestion of the Global Witness Report that
the payments came from the same bank account in

21
which Exxon had deposited its funds: ‘The payments
were probably made from the same bank account into
which Exxon had just deposited $5 million for Block
13, although there is no evidence that Exxon itself
directed or knew about payments to officials,
according to the report.’”).
Judge Silberman’s dissent correctly honed in on
this fundamental failing of the Global Witness
Report, which itself acknowledged that Global
Witness had no evidence that Exxon had paid any
bribes. But despite its own confession that it had no
evidence that Exxon had paid bribes, Global Witness
did everything it could to convey to readers the
impression that Exxon had paid bribes and that Tah
and McClain were the recipients of those bribes.
As Judge Silberman pointed out, the admission in
the Global Witness Report itself that it could not,
despite its investigation, confirm that Exxon was
guilty of bribery, should have led inexorably to the
conclusion that the accusation that Tah and McClain
had accepted bribes was inherently improbable:
Appellants claim that Global Witness knew
it lacked any support for insinuating that the
payments to Tah and McClain were bribes.
Thus, a jury could infer that Global Witness
subjectively doubted the truth of its Report.
I agree. In my view, because Global
Witness’s story is obviously missing (at least)
one necessary component of bribery, it is
inherently improbable. Although it accused
Appellants of taking bribes from Exxon,
Global Witness admits that it had “no
evidence that Exxon directed the [National
Oil Company] to pay Liberian officials, nor
that Exxon knew such payments were

22
occurring.” J.A. 83 (emphasis added). In
other words, despite all its investigating,
Global Witness uncovered nothing to
demonstrate that Exxon was the briber and
nothing to even suggest there was an agreed
upon exchange. Accord Tah, 413 F. Supp. 3d
at 10 (“Global Witness's suspicions and calls
for investigations of Exxon Mobil and [the
National Oil Company] lacked any evidence
that the former had involvement in monies
paid to employees of the latter.”) (emphasis
in original). And with no privity between
Exxon and the Technical Committee
members, it is bizarre to accuse Appellants
of taking a bribe. As St. Amant teaches, it is
sufficient to infer—on this basis alone—that
Appellee acted with knowing disregard for
the veracity of its publication.
App. 26-27. 1
1

Judge Silberman’s incisive analysis on this point led to
an ancillary exchange between the Majority and Judge
Silberman, in which the Majority argued that Tah and McClain
had not made this argument. This led to the caustic rejoinder by
Judge Silberman that this “leads me to wonder whether we
received the same briefs.” App. 27. Suffice it to say, at minimum,
that Tah and McClain in their Complaint did recite that Global
Witness and other media organizations picking up on its Report
disclaimed any proof that Exxon had paid bribes. Complaint,
¶ 73. But more importantly, as emphasized in the Complaint, in
the arguments proffered to both Courts below, and in this
Petition, the entire theory of the case brought here by Tah and
McClain against Global Witness was that despite knowing it did
not know whether bribery had occurred, Global Witness
deliberately conveyed to readers the impression that it had. As
Judge Silberman put it bluntly: “That sounds to me a whole lot
like accusing Global Witness of publishing its story with no
evidence to back it up.” App. 27.

23
The Majority dismissed this argument, reading the
Global Witness Report as implying that NOCAL, not
Exxon, was the briber. As Judge Silberman rejoined,
this claim by the Majority is utterly illogical and
incoherent. NOCAL, an arm of the government of
Liberia, had no reason to bribe its own employees,
but it had every reason to congratulate its own
employees on a job well done—for what was for
Liberia the deal of a lifetime. The Complaint drove
this home, in paragraph after paragraph, setting
forth in detail how the fundamental flaws in the
Global Witness story had been presented to Global
Witness prior to publication.
Specifically, Jeff Wood painstakingly explained
that the payments made by Exxon, including the $50
million that went to NOCAL, was in no sense
“voluntary,” as Global Witness had asserted, but was
a bargained-for payment successfully negotiated by
Liberia as part of Exxon’s purchase price. App. 41.
Wood explained that he would testify as a witness in
any defamation action brought against Global
Witness regarding the false bribery allegations.
Wood’s statements made it clear that it was
deliberately misleading for Global Witness to equate
the bribery allegations surrounding the original
purchase of Block 13 by Broadway Consolidated in
2006 and 2007 with the very different bonus
payments awarded following the highly successful
2013 Exxon deal. App. 28. Woods’ statements also
explained how the bonus payments to all NOCAL
employees, “all the way down to the drivers and
housekeeping staff,” was “hardly consistent with an
intent to bribe, and completely consistent with the
payment of a bonus.” Complaint ¶ 97. Wood refuted
the claim that the payments were corrupt because
there had been no similar payments in recent years,

24
explaining that the theory was entirely baseless,
because there had been no successful Company deals
consummated during those years. There had simply
been no success to reward. App. 31. These
communications to Global Witness were not “mere
denials.” Rather, these were communications that led
to a plausible inference that Global Witness was
guilty of “purposeful avoidance of the truth.” HarteHanks Communications Inc. v. Connaughton, 491
U.S. 657, 692 (1989).
The Complaint buttressed these allegations with
numerous facts reinforcing the inference that Global
Witness led readers to believe bribery had occurred
when Global Witness itself knew it had not been able
to confirm the bribery accusation. The Majority
opinion below picked apart each of these factual
allegations, offering an exculpatory reason for each.
Judge Silberman, in turn, offered an inculpatory
reason for each. Yet if the Palin holding that federal
courts are not to weigh competing plausible
explanations of the facts on a 12(b)(6) motion is
sound, the Majority’s methodology, picking apart the
Complaint’s allegations by offering counterexplanations, was error, a kind of “plausibility creep,”
that if allowed to go unchecked, will swamp the law
of defamation in federal forums.
Tah and McClain alleged that Global Witness, in
its zeal to write a sensational story bringing down
Exxon and Secretary Tillerson, pursued a
preconceived story line plausibly probative of actual
malice. Tah and McClain argued that letters seeking
comment sent by Global Witness to various
participants in the Block 13 deal, including Tah and
McClain, were cynically calculated to provide Global
Witness with journalistic cover. In those letters
Global Witness stated that it had already concluded

25
that the payments to Tah and McClain and others
were “most likely” bribes. Complaint ¶¶ 91–92, App.
62. The preconceived story blinded Global Witness to
any evidence put before it that would contradict its
sensationalist thesis. Tah and McClain did not assert
that this was in itself dispositive of the existence of
actual malice, but surely gave rise to a plausible
inference probative of actual malice. The Majority
opinion improperly rejected this thesis, asserting:
“After all, virtually any work of investigative
journalism begins with some measure of suspicion.”
App. 16. The Majority concluded that the fact that
the letters came on the eve of publication provided
“no support at all for the notion that Global Witness’s
conclusion was preconceived.” App. 16. And turning
the letters against Tah and McClain, the Majority
noted that seeking such comment is standard
journalistic practice. App. 16.
The Majority’s labored effort to explain away the
letters underscores that it was doing exactly what
federal courts are not supposed to do, engaging in a
weighing of the evidence at the pleading stage. This
was symptomatic of the Majority’s entire opinion, on
issue after issue. As Judge Silberman observed, “[t]he
Majority discounts these facts by weighing the
evidence and drawing inferences against Tah and
McClain.” App. 34.
Given the detail of the refuations presented to it, it
was certainly plausible that Global Witness had
before it evidence that must have given it obvious
reason to doubt the accuracy of the story. The
Majority below acted as if Tah and McClain merely
argued that actual malice inured in “Global Witness’s
failure to credit their denials.” App. 17. But Tah and
McClain did not argue anything so shallow as
claiming that the mere fact of a denial is probative of

26
actual malice. Rather, it is the content of the denial
that matters. As Judge Silberman pointed out, “the
specific content of a denial may well give the
publisher obvious reasons to doubt the veracity of the
publication.” App 33. Judge Silberman explained:
Global Witness, however, did not have
evidence on both sides of the issue. It had
“no
evidence”—and
no
witnesses—to
contradict the six denials. The cumulative
balance of the evidence thus gives Global
Witness obvious reasons for doubt.
I am dumbfounded by the Majority’s
assertion that the denials in our case contain
“no readily verifiable information . . . that
would provide ‘obvious reasons to doubt.’” . . .
The denials were specific, and it was within
Global Witness’s power to easily inquire into
whether other employees received bonuses,
the content of the Board’s resolution
approving the bonuses, and whether the $4
million to the National Oil Company was
negotiated as part of the purchase price (etc.).
App. 34.
Similarly, the Majority flitted away the argument
of Tah and McClain that the detailed allegations in
the Complaint asserting ill-will and a subjective
desire on the part of Global Witness to damage Exxon
and Secretary Tillerson were probative of actual
malice, describing this argument as “breathtaking”
and dismissing it with the truism that “evidence of ill
will ‘is insufficient by itself to support a finding of
actual malice.’” App. 19, quoting Tavoulareas v. Piro,
817 F.2d 762, 795 (D.C. Cir. 1987) (en banc).

27
The subjective “gotcha” motivation alleged in detail
in the Complaint may not in itself constitute actual
malice, but it is obviously probative, and could give
rise to a plausible instance of actual malice given the
sensationalist tenor of the Global Witness report,
seeking to make headlines against Exxon and
Secretary Tillerson, blinding Global Witness to the
truth. Consider the cogent analysis of Judge
McKinnon, joined by then-Judge Scalia, but then
vacated by the full D.C. Circuit sitting en banc:
The mere existence of a preconceived plan to
“get” the subject of a defamatory story does
not prove that the publisher acted knowingly
or recklessly in publishing false information.
But it is beyond question that one who is
seeking to harm the subject of a story—
whether motivated by simple ill will, or
partisan
political
considerations,
or
otherwise laudable concern for the safety of
the nation, or a mere desire to attract
attention and boost circulation—is more
likely to publish recklessly than one without
such motive.
Tavoulareas v. Piro, 759 F.2d 90, 98 (D.C. Cir.
1985) (internal citations omitted), vacated and
superseded on other grounds by Tavoulareas v. Piro,
817 F.2d 762, 772 (D.C. Cir. 1987) (en banc), cert.
denied, 484 U.S. 870 (1987).
The opinion of the Majority below is also flatly
inconsistent with this Court’s statement in Herbert v.
Lando, reciting that “‘[t]he existence of actual malice
may be shown in many ways. As a general rule, any
competent evidence, either direct or circumstantial,
can be resorted to, and all the relevant circumstances
surrounding the transaction may be shown, provided

28
they are not too remote, including threats, prior or
subsequent defamations, subsequent statements of
the defendant, circumstances indicating the existence
of rivalry, ill will, or hostility between the parties,
facts tending to show a reckless disregard of the
plaintiff's rights . . .’” Herbert, 441 U.S at 164, n. 12,
quoting 50 Am.Jur.2d § 455 (1970).
As the opinion of Judges McKinnon and Scalia
explained, the “idea that motive can be evidence of
actual malice when it is not an element of the tort” is
sound, for the distinction “is akin to that between
motive to kill (e.g., greed or hatred) and intent to kill
in a murder prosecution. They are not the same
thing. The second is an element of the crime of
murder; the first is evidence admissible to prove that
element.” Tavoulareas, 759 F.2d at 98 n.34 (emphasis
in original). Thus “a plaintiff is entitled to prove the
defendant’s state of mind through circumstantial
evidence, and it cannot be said that evidence
concerning motive or care never bears any relation to
the actual malice inquiry.” Harte-Hanks, 491 U.S. at
668 (internal citations omitted).
Tah and McClain offered many other specific
indicia of actual malice, none of them credited by the
Majority. NOCAL paid bonuses to all those involved
in the negotiations, including American consultants.
App 31. It also paid bonuses to all employees of
NOCAL, even the most low-ranking employees. As
Judge Silberman put it, “for Global Witness’s story to
be true, Exxon was somehow spreading bribes left
and right like Johnny Appleseed.” App. 29. “The
much more obvious explanation is that the ‘bonuses’
were in fact bonuses paid for outstanding
performance.” App. 29.

29
The Complaint emphasized the stunning failure of
Global Witness to include the name of the Legal
Advisor to President Sirleaf, Seward Cooper, as
among the Hydrocarbon Technical Committee
members who received a $35,000 bonus. Indeed,
while the Committee had six members, as Global
Witness knew, the sinister chart it displayed to
graphically communicate its point that bribe money
had flowed from Exxon through Company to the
Committee members contained only five of the six
members, conspicuously leaving out Seward Cooper’s
name. Complaint ¶ 99. Why might this matter? A
plausible inference is that Global Witness realized
that including Seward’s name as one of the recipients
could have caused its entire thesis to unravel.
President Sirleaf ordered the bonus payments after
successful completion of the contract with Exxon as a
deserved bonus for a job well done. The payments
were made only after a careful legal opinion was
rendered approving the legality of the payments by
Tah and Cooper, President Sirleaf’s own legal
advisor. That legal opinion was grounded in the
supposition that there was no quid pro quo, not even
a demand, for payment by any Committee member,
including Seward Cooper himself. Id. A jury could
conclude that the conspicuous omission of Cooper’s
name and title from its Catch me if you can Report
was a deliberate manipulation to mask from readers
a glaring inconsistency in its narrative, a
manipulation plausibly probative of actual malice.
The Majority’s answer to this was an unabashed
substitution of the Majority’s inference over the
inference to which Tah and McClain were entitled.
The Majority argued that “[i]f anything, that one of
the lawyers responsible for conducting a legal
analysis of the payments was himself in line to

30
receive one makes the payments even more
suspicious.” App. 20. Yet Tah and McClain were
entitled to the opposite inference—that it was Global
Witness’s omission of this detail that was suspicious.
The Majority impermissibly weighed competing
plausible inferences.
E. In Shutting Out the Vast Majority of
Public Plaintiff Cases the Current Regime
Undermines Both Society’s Interest in
Protecting Reputation and the Quality of
Public Discourse
“The adverse consequences of the actual malice
rule do not prove Sullivan itself wrong, but they do
force consideration of the question whether the Court,
in subsequent decisions, has extended the Sullivan
principle too far.” Elena Kagan, A Libel Story:
Sullivan Then and Now, 18 Law and Social Inquiry
197, 205 (1993). (reviewing Anthony Lewis, Make No
Law: The Sullivan Case and the First Amendment
(1991)).
There may be universal agreement that somehow
the outcome in Sullivan was both inevitable and just.
The Court was faced with a punishing libel judgment
against the New York Times arising from a paid
advertisement from the Committee to Defend Martin
Luther King in which the plaintiff, an obscure
Alabama public commissioner never mentioned in the
ad, was plainly seeking to punish the Times for
daring to publish the essential truths of the civil
rights struggle. Somehow the pernicious decision of
the Alabama Supreme Court, in a case rife with
racist suppression of press coverage of the civil right
movement could not be allowed to stand. The ensuing
debate over the propriety of the Sullivan decision has
not been over the outcome but the means the Court

31
chose to get there, and costs those means have
exacted on the protection of reputation and the
quality of American public discourse. For “not all
such suits look like Sullivan, and the use of the
actual malice standard in even this limited category
of cases often imposes serious costs: to reputation, of
course, but also, at least potentially, to the nature
and quality of public discourse.” Kagan, supra, at
204-05.
The dual interests at stake are worth emphasis.
“[T]he Court has reiterated its conviction—reflected
in the laws of defamation of all of the States—that
the individual’s interest in his reputation is also a
basic concern.” Herbert v. Lando, 441 U.S. at 169. The
protection of “his own good name ‘reflects no more
than our basic concept of the essential dignity and
worth of every human being—a concept at the root of
any decent system of ordered liberty.’” Gertz v. Robert
Welch, Inc., 418 U.S. 323, 341 (1974), quoting
Rosenblatt v. Baer, 383 U.S. 75, 92 (1966) (Stewart,
J., concurring).
For defamation plaintiffs, this is no theoretical
abstraction. It is profoundly personal and destructive.
Justice Thomas argued in Berisha that the lack of
historical support for actual-malice requirement “is
reason enough to take a second look at the Court's
doctrine.” Berisha, 141 S.Ct. at 2425. (Thomas, J.)
History aside, Justice Thomas also noted the realworld damage caused by the current regime,
observing: “Our reconsideration is all the more
needed because of the doctrine’s real-world effects.
Public figure or private, lies impose real harm.” Id.
Christiana Tah and Randolph McClain were
dedicated public servants who sacrificed greatly to
combat corruption and promote progress and the rule
of law for their native country, only to see their

32
efforts cynically trashed as collateral damage in an
effort to embarrass Exxon and Secretary of State
Tillerson. The decision below, and others like it
around the nation, leave them and others like them,
without recourse to remedy. “The Court would now
shift this risk to the victim, even though he has done
nothing to invite the calumny, is wholly innocent of
fault, and is helpless to avoid his injury.” Gertz, 418
U.S. at 390 (White, J., dissenting).
In the recent words of Justice Gorsuch, “Since 1964
. . . our Nation’s media landscape has shifted in ways
few could have foreseen.” Berisha, 141 S.Ct. at 2427
(Gorsuch, J.), citing David Logan, Rescuing Our
Democracy by Rethinking New York Times Co. v.
Sullivan, 81 Ohio St. L. J. 759, 794 (2020). “Our
marketplace of ideas is being battered by a perfect
storm of technological, economic, and political
changes.” Id. at 800. “When a defamatory message is
posted on the Internet, one can view and track and
permanently document the echo boom of comments,
posts, tweets, and repetitions of the defamatory story
as the falsehood spreads like a virulent virus across
digital space.” Rodney A. Smolla, Law of Defamation
§ 1:27.50 (2021 ed.).
The damage to public discourse exacted by a regime
that effectively threatens to shut down a large swath
of defamation actions should deeply concern the Court.
This Court has recognized society’s interest, expressed
through the libel laws of the states, to both protect
individual reputation and deter falsehoods in our
public discourse, observing in Keeton v. Hustler
Magazine, Inc., 465 U.S. 770 (1984), that “New
Hampshire has clearly expressed its interest in
protecting such persons from libel, as well as in
safeguarding its populace from falsehoods.” Id. at 777.

33
“The level of discourse over public issues is not
simply a function of the total amount of speech.”
Richard Epstein Was New York Times v. Sullivan
Wrong?, 53 U. Chi. L. Rev. 782, 799-800 (1986).
Today, with the proliferation of social media,
internet, cable, satellite, broadcast, and print media,
society is awash in the quantity of discourse. But the
level of discourse “also depends on the quality of the
speech.” Id. at 800. (emphasis added). To the extent
that no realistic roadblocks exist to the correction of
error, the public is a loser. Id.
When the actual malice standard is combined with
the Twombly and Iqbal standard, as interpreted by
the D.C. Circuit and the other federal circuits that
are aligned with it, there is effectively little or no law
of defamation left. As Justice Thomas observed: “The
proliferation of falsehoods is, and always has been, a
serious matter. Instead of continuing to insulate
those who perpetrate lies from traditional remedies
like libel suits, we should give them only the
protection the First Amendment requires.” Berisha,
141 S.Ct. at 2425 (Thomas, J.).
F. The Perils of Double Counting
The opinion below is of a piece with other opinions
wrongly dismissing complaints at the pleading stage
in order to protect the publisher from the expense of
discovery. See Michel, 816 F.3d at 702 (claiming that
the “costs and efforts required to defend a lawsuit
through that stage of litigation could chill free
speech.”). This sort of reasoning is yet another
powerful reason for the Court to grant this writ. To
the extent that the opinion below or opinions such as
Michel place a “thumb on the scale” at the pleading
stage against public plaintiffs, they engage in a form
of First Amendment “double counting” that this

34
Court has previously rejected. Such “double counting”
involves the piling on of onerous procedural barriers
to recovery, in addition to the First Amendment
standards the law already provides.
As the Court explained in Calder v. Jones, 465 U.S.
783 (1984), “the potential chill on protected First
Amendment activity stemming from libel and
defamation actions is already taken into account in
the constitutional limitations on the substantive law
governing such suits.” Id. at 790. Rejecting an
attempt to place a thumb on the scale in procedural
matters such as jurisdiction, the Court stated that
“[t]o reintroduce those concerns at the jurisdictional
stage would be a form of double counting.” Id. The
Court observed that it had “already declined in other
contexts to grant special procedural protections to
defendants in libel and defamation actions in
addition to the constitutional protections embodied in
the substantive laws.” Id. at 790-91.
“Many Members of this Court have raised
questions about various aspects of Sullivan.” Berisha,
141 S.Ct. at 2429 (Gorsuch, J.) (collecting
statements). One critical “aspect of Sullivan” is
procedural. The Court could and should harmonize
the actual malice standard with Twombly and Iqbal
by holding that a complaint by a public plaintiff
alleging defamation sufficiently pleads actual malice,
even in the absence of direct evidence, by presenting
detailed factual allegations from which, when
collectively viewed, actual malice could plausibly be
inferred. At the very least, the time has come to once
again engage these issues. “[T]he Court would profit
from returning its attention . . . to a field so vital to
the ‘safe deposit’ of our liberties.” Id.

35
CONCLUSION
The petition for a writ of certiorari should be
granted.
Dated: July 26, 2021
Respectfully submitted,
RODNEY A. SMOLLA
Counsel of Record
4601 Concord Pike
Wilmington, Delaware 19803
(864) 373-3882 (cell)
(302) 477-2282 (fax)
rodsmolla@gmail.com
ARTHUR V. MEDEL
MEDEL SANFILIPO
1701 Pennsylvania Avenue, N.W.,
Suite 200
Washington, D.C. 20006
(202) 683-2008
(703) 945-9137 (cell)
(703) 991-8014 (fax)
avmedel@medsanlaw.net
Attorneys for Plaintiffs-Appellants

APPENDIX

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE D ISTRICT OF C OLUMBIA C IRCUIT

__________
Argued September 14, 2020
Decided March 19, 2021

__________
No. 19-7132

__________
C HRISTIANA T AH

AND

R ANDOLPH M C C LAIN ,

—v.—

Appellants

G LOBAL W ITNESS P UBLISHING , I NC .
AND G LOBAL W ITNESS ,
Appellees

__________
Consolidated with 19-7133

__________
Appeals from the United States District Court
for the District of Columbia
(No. 1:18-cv-02109)

__________

87596 • WIDENER• APPENDIX A

AL 7/7/21

2a
Rodney A. Smolla argued the cause for appellants/
cross-appellees. With him on the briefs was Arthur
V. Medel.
Chad R. Bowman argued the cause for appellees/
cross-appellants. With him on the briefs were
David A. Schulz, Mara J. Gassmann, and Maxwell
S. Mishkin.
Gregory M. Lipper was on the brief for amici
curiae Non-Governmental Organizations in support
of appellees/cross-appellants.
Bruce D. Brown and Katie Townsend were on the
brief for amici curiae Reporters Committee for
Freedom of the Press and 26 Media Organizations
in support of appellees/cross-appellants.
Before: SRINIVASAN, Chief Judge, TATEL, Circuit
Judge, and SILBERMAN , Senior Circuit Judge.
Opinion for the Court filed by Circuit Judge
TATEL .
Opinion dissenting in part filed by Senior
Circuit Judge SILBERMAN .
TATEL , Circuit Judge: In this defamation action,
two former Liberian officials allege that Global
Witness, an international human rights organization, published a report falsely implying that they
had accepted bribes in connection with the sale of
an oil license for an offshore plot owned by Liberia.
The district court dismissed the complaint for
failing to plausibly allege actual malice. For the
reasons set forth in this opinion, we affirm. The
First Amendment provides broad protections for
speech about public figures, and the former
officials have failed to allege that Global Witness
exceeded the bounds of those protections.

87596 • WIDENER• APPENDIX A

AL 7/7/21

3a
I.
Because this appeal comes to us from a dismissal
pursuant to Federal Rule of Civil Procedure 12(b)(6),
“[w]e accept facts alleged in the complaint as true
and draw all reasonable inferences from those facts
in the plaintiffs’ favor.” Hancock v. Urban Outfitters,
Inc., 830 F.3d 511, 513–14 (D.C. Cir. 2016).
The dispute in this case traces its roots to an
Atlantic Ocean plot owned by Liberia and thought
to have potentially significant oil reserves. Compl. ¶
18. The National Oil Company of Liberia (NOCAL),
responsible under Liberian law for awarding oil
licenses, first issued a license for the plot, known as
“Block 13,” in 2007 to a company called Broadway
Consolidated PLC (BCP). Id. ¶¶ 19–21. That
transaction was marred by “rumors of corruption,”
and when BCP failed to fulfill its obligations under
its production sharing contract, Liberia began
arranging to sell Block 13 to a different oil company.
Id. ¶¶ 21–22.
ExxonMobil, a multinational oil company, was
interested in purchasing Block 13 but wary of buying
the license directly from BCP given the rumors of
corruption surrounding the 2007 transaction.
Accordingly, Exxon got a third-party, Canadian
Overseas Petroleum Limited, to buy the Block 13
license and resell it to Exxon. In exchange, Exxon
paid $120 million, of which $50 million went directly
to Liberia—the most Liberia had ever received in a
single natural resources deal. Id. ¶ 22. Unlike in the
BCP transaction, Liberia was represented in these
negotiations by the Hydrocarbon Technical
Committee (HTC), a six-member government entity
created to “superintend [] negotiations” between oil

87596 • WIDENER• APPENDIX A

AL 7/7/21

4a
companies and NOCAL. Id. ¶¶ 23–24. Plaintiffs
Christiana Tah and Randolph McClain, Liberia’s
Minister of Justice and NOCAL’s CEO respectively,
were HTC members during the transaction.
After the deal was consummated, the Liberian
President directed NOCAL’s board to pay bonuses to
those responsible for the new agreement as a “reward
for exceptionally well-done service.” Id. ¶¶ 25–26, 28.
But before the board determined the size of the
bonuses, McClain “asked two of the HTC members,
the President’s Legal Advisor, Seward Cooper, and
Minister of Justice, Christiana Tah, if payment of
such bonuses would be legally permissible.” Id. ¶ 26.
Cooper and Tah “concluded” that they were legal for
“two . . . independent reasons.” Id. ¶ 28. First, the
pertinent Liberian anti-corruption law had “expired
and was no longer legally operative.” Id. And second,
even had the law remained in force, the bonuses
would still pass muster because they “had come at
the initiative of [the] President” and “[n]o prospective
recipient of the bonuses claimed to have demanded
any such bonus payments.” Id.
NOCAL’s board then authorized “approximately
$500,000” worth of bonuses. Id. ¶ 29. Each “member[]
of the HTC, including . . . Tah and . . . McClain,
received . . . $35,000,” and each of “five consultants
were . . . sent bonuses of $15,000.” Id. The rest of the
funds were split among the remaining NOCAL
employees, including drivers and custodial workers.
Id. The $35,000 payments to Tah and McClain are
the focus of this case.
According to Global Witness’s report, Catch me if
you can, the organization first learned of Exxon’s
Block 13 deal from the Liberian Extractive Industries

87596 • WIDENER• APPENDIX A

AL 7/7/21

5a
Transparency Initiative (LEITI), a semi-autonomous
Liberian agency that publishes information about
payments made by energy companies to the Liberian
government. Because of NOCAL’s “tarnished track
record of corrupt deals, Global Witness saw there was
a risk of bribery and began its investigation.” Catch
me if you can (“Report”) at 9; see also Compl. ¶ 42.
Global Witness focused on Block 13 in order to
highlight the “critical information” provided by
section 1504 of the Dodd-Frank Act, see 15 U.S.C. §
78m(q), which “[l]ike LEITI, . . . requires all oil, gas,
and mining companies to report the payments they
make to governments.” Report at 9.
Catch me if you can addresses Block 13’s
background and the corruption surrounding the BCP
deal. For example, it states BCP was “likely partowned by [now-former Liberian] government officials
with the power to influence the award of oil licenses,”
and that the award of Block 13 to BCP therefore
olated Liberian law. Id. at 12. The report also claims
that the BCP license was approved due to bribery. It
then explains how Exxon structured its transaction
to alleviate its concerns about the BCP deal.
The report principally addresses the $35,000
payments in a section titled “Monrovia, 2013: Awash
in Cash.” Id. at 30–31. This section discusses what
are repeatedly described as “unusual, large”
payments made to HTC members, referencing Tah
and McClain by name. Id. at 30. It states that
NOCAL characterized the payments as “bonuses,”
using scare quotes whenever it repeats the word
“bonus,” and claims that the payments “appear . . . to
be linked to the HTC’s signing of Block 13.” Id.
In support of its claim that the payments were
“large” and “unusual,” the report states that “there is

87596 • WIDENER• APPENDIX A

AL 7/7/21

6a
no sign of equivalent bonuses during” the surrounding years, “except for smaller yearly bonuses paid
shortly before Christmas[;]” that “the payments
represented a 160 percent increase on the reported
highest salary paid to a Liberian minister[;]” and
that one HTC member who was supposedly working
for free nonetheless received a payment. Id. The
report then gives the definition of bribery under
Liberian law and references some of the corruption
surrounding the 2007 BCP deal—specifically,
payments NOCAL made to members of the Liberian
legislature to ensure approval of that earlier license,
which NOCAL deemed “lobbying fees,” and which
the Liberian Government’s General Auditing
Commission later “classified as bribes.” Id.
A few weeks before Global Witness issued the
report, it sent letters to HTC members informing
each that “we believe that the payment made by
NOCAL to you was most likely a bribe, paid as a
reward to ensure that [Block] 13 was negotiated
successfully,” and asking for a response. Compl.
¶¶ 91–92. Several HTC members, including Tah,
denied that the payments were bribes, insisting they
were bonuses authorized by NOCAL’s board that
were “appropriately earned given the extraordinary
success of the Exxon negotiations,” and pointing out
that all NOCAL employees received bonuses. Id.
¶¶ 93–95. Global Witness included excerpts from
these denials in the report. Report at 30.
The report also discusses Exxon’s relationship to
these payments. It characterizes them as evidence of
Exxon’s possible “complicit[y]” in “Liberia’s corrupt
oil sector,” declaring that “Exxon should have known
better.” Id. at 32–33. According to the report, “Exxon
. . . knew it was buying a license with illegal origins”

87596 • WIDENER• APPENDIX A

AL 7/7/21

7a
and the payments were “in effect . . . likely made with
Exxon’s money.” Id. Although stating that “Global
Witness believes that Exxon should have considered
it possible that money the company provided to
NOCAL could have been used as bribes in connection
with Exxon’s Block 13 deal,” the report acknowledges
that “Global Witness has no evidence that Exxon
directed NOCAL to pay Liberian officials, nor that
Exxon knew such payments were occurring.” Id. at
31–32.
Lastly, Global Witness called on the Liberian
government to investigate the payments and, in the
event such investigation uncovers unlawful behavior,
urged the U.S. Department of Justice “to determine if
the company violated the [Foreign Corrupt Practices
Act].” Id. at 32. Global Witness sent copies of the
report to the U.S. Attorney General and the Chairman
of the Securities and Exchange Commission. Compl.
¶¶ 100–02.
Following the report’s publication, the Liberian
government investigated the payments and
concluded that they did not “constitute[] bribe[s]
within the context of [Liberian] law” and were not
“made so [the HTC] could undertake [an] official act.”
Id. ¶ 81 (internal quotation marks omitted). The
Liberian government nonetheless recommended that
the HTC members return the payments. Id. ¶ 83. Tah
and McClain refused, asserting that the payments
were above-board bonuses for a job well done. Id.
Believing that Catch me if you can falsely impugns
their integrity and reputations, Tah and McClain
sued Global Witness for defamation and false light
invasion of privacy. They dispute none of the facts
contained in the report but argue that Global

87596 • WIDENER• APPENDIX A

AL 7/7/21

8a
Witness falsely “communicated [through implication]
. . . that . . . each took a bribe in exchange for their
roles in the Exxon purchase of Block 13.” Id. ¶ 31
(emphasis omitted).
Global Witness responded with a special motion to
dismiss under the District of Columbia’s anti-SLAPP
(strategic lawsuits against public participation)
statute, which seeks to protect speakers from lawsuits “filed by one side of a political or public policy
debate aimed to punish or prevent the expression of
opposing points of view.” Competitive Enterprise
Institute v. Mann, 150 A.3d 1213, 1226 (D.C. 2016)
(internal quotation marks omitted). To defeat such a
motion, the plaintiff must “demonstrate[] that the
claim is likely to succeed on the merits,” even as the
act severely limits discovery. D.C. Code § 16-5502(b).
A prevailing defendant may seek an award of
attorney’s fees. Id. § 16-5504(a). Global Witness also
filed a motion to dismiss for failure to state a claim
under Federal Rule of Civil Procedure 12(b)(6),
arguing that the complaint failed to plead defamation
by implication, that any defamatory implication was
protected opinion, and that, in any event, the complaint
failed to plead actual malice as required under the
First Amendment.
The district court denied Global Witness’s special
motion because, in its view, the D.C. anti-SLAPP
statute did not apply in federal court. Tah v. Global
Witness Publishing, Inc., No. 18-cv-2109 (D.D.C.
June 19, 2019). The court, however, granted Global
Witness’s Rule 12(b)(6) motion, finding that “the
contents of the report are protected speech under the
First Amendment and cannot sustain a defamation
claim.” Tah v. Global Witness Publishing, Inc., 413 F.
Supp. 3d 1, 3–4 (D.D.C. 2019).

87596 • WIDENER• APPENDIX A

AL 7/7/21

9a
Tah and McClain appeal, arguing, as they did in
the district court, that their allegations are sufficient
to state a plausible case of actual malice because
Global Witness (1) began its investigation with a
preconceived story line, (2) received denials from
some of those involved, (3) harbored ill-will toward
Exxon, and (4) omitted Seward Cooper from the list
of payment recipients. Global Witness cross-appeals,
arguing that the anti-SLAPP statute applies in
federal court and that the district court’s denial of
the special motion to dismiss deprived it of the ability
“to recover the expenses it has incurred in defending
against this meritless attack.” Appellees’ Br. 67. Like
the district court, we begin with the anti-SLAPP
issue.
II.
Under the Supreme Court’s decision in Shady
Grove Orthopedic Associates., P.A. v. Allstate
Insurance Co., to decide whether a state (or district)
law or rule—in this case the D.C. anti-SLAPP
statute—applies in a federal court exercising
diversity jurisdiction, we “first determine whether [a
federal rule of civil procedure] answers the question
in dispute.” 559 U.S. 393, 398 (2010). If it does, the
federal rule “governs . . . unless it exceeds statutory
authorization or Congress’s rulemaking power.” Id.
Applying the Shady Grove test, our court held in
Abbas v. Foreign Policy Group, LLC that the D.C.
anti-SLAPP act does not apply in federal court. 783
F.3d 1328, 1334–37 (D.C. Cir. 2015). Without
controlling guidance from the D.C. Court of
Appeals—at the time that court had yet to interpret
the anti-SLAPP act—we construed the statute’s

87596 • WIDENER• APPENDIX A

AL 7/7/21

10a
“likely to succeed on the merits” standard literally,
finding that it “is different from and more difficult for
plaintiffs to meet than the standards imposed by
Federal Rules 12 and 56.” Id. at 1335. Accordingly,
we concluded that the D.C. anti-SLAPP statute
impermissibly “conflicts with the Federal Rules by
setting up an additional hurdle a plaintiff must jump
over to get to trial.” Id. at 1334.
Global Witness argues that the D.C. Court of
Appeals’s subsequent decision in Competitive
Enterprise Institute v. Mann effectively abrogates
Abbas. There, interpreting the anti- SLAPP statute’s
special motion to dismiss provision for the first time,
the Court of Appeals held, contrary to Abbas, that
the “D.C. Anti-SLAPP Act’s likelihood of success
standard . . . simply mirror[s] the standards imposed
by Federal Rule 56,” and that to decide a special
motion to dismiss, the court “must assess the legal
sufficiency of the evidence” as it currently stands at
the time of the motion. Mann, 150 A.3d at 1236, 1238
n.32 (internal quotation marks omitted).
Even with this development, however, Abbas
remains circuit law and controls this case. The
reason comes from Mann itself, in which the Court of
Appeals “agree[d] with Abbas that the special motion
to dismiss is different from summary judgment” in
two respects. Id. at 1238 n.32.
First, the special motion to dismiss “imposes the
burden on plaintiffs.” Id. Once a defendant makes a
prima facie showing that the lawsuit in question
qualifies as a SLAPP, the burden shifts to the
plaintiff to defeat the special motion to dismiss. Id. at
1237. By contrast, even a “movant” defendant on a
Federal Rule 56 summary judgment motion retains

87596 • WIDENER• APPENDIX A

AL 7/7/21

11a
some initial “burden of showing that there is no
genuine issue of fact.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 256 (1986).
Second, the Court of Appeals observed that, unlike
a summary judgment motion, a special motion to
dismiss will usually be decided “before discovery is
completed.” Mann, 150 A.3d at 1238 n.32. By
contrast, under Federal Rule 56, summary judgment
is typically “premature unless all parties have had a
full opportunity to conduct discovery.” Convertino v.
DOJ, 684 F.3d 93, 99 (D.C. Cir. 2012) (internal
quotation marks omitted). According to Global
Witness, however, the allowance for discovery under
the anti-SLAPP statute is identical to that under
Federal Rule 56. The D.C. Court of Appeals’s recent
decision in Fridman v. Orbis Business Intelligence
Ltd., 229 A.3d 494 (D.C. 2020), forecloses this
argument. There, the court addressed the provision
of the anti-SLAPP act that stays discovery whenever
a special motion to dismiss is filed, except for “[w]hen
it appears likely that targeted discovery will enable
the plaintiff to defeat the motion and that the
discovery will not be unduly burdensome.” D.C. Code
§ 16-5502(c)(2). That standard, the court explained,
“is difficult to meet,” because the party requesting
discovery must show that it is actually “likely” that
“targeted discovery will enable him to defeat the
special motion to dismiss.” Fridman, 229 A.3d at
512–13. Thus, “discovery normally will not be
allowed.” Id. at 512. This differs from Federal Rule
56, under which full discovery is the norm, not the
exception.
Although Mann may undermine some of Abbas’s
reasoning, the bottom line remains: the federal rules
and the anti-SLAPP law “answer the same question

87596 • WIDENER• APPENDIX A

AL 7/7/21

12a
about the circumstances under which a court must
dismiss a case before tria . . . differently,” and the
anti-SLAPP law still “conflicts with the Federal
Rules by setting up an additional hurdle a plaintiff
must jump over to get to trial.” Abbas, 783 F.3d at
1333–34 (internal quotation marks omitted).
Accordingly, the district court properly applied Abbas
to this case and denied the special motion.
III.
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007)). “We assume the truth of all well-pleaded
factual allegations and construe reasonable
inferences from those allegations in a plaintiff’s
favor.” Nurriddin v. Bolden, 818 F.3d 751, 756 (D.C.
Cir. 2016). “Threadbare recitals of the elements of a
cause of action, supported by mere conclusory
statements, do not suffice.” Iqbal, 556 U.S. at 678.
In a defamation by implication case under D.C.
law, “the courts are charged with the responsibility of
determining whether a challenged statement is
capable of conveying a defamatory meaning.” White
v. Fraternal Order of Police, 909 F.2d 512, 518 (D.C.
Cir. 1990) (internal quotation marks omitted). A
plaintiff must show first that the “communication,
viewed in its entire context, . . . conveys materially
true facts from which a defamatory inference can
reasonably be drawn,” and second, that “the communication, by the particular manner or language in
which the true facts are conveyed, supplies

87596 • WIDENER• APPENDIX A

AL 7/7/21

13a
additional, affirmative evidence suggesting that the
defendant intends or endorses the defamatory
inference.” Armstrong v. Thompson, 80 A.3d 177, 184
(D.C. 2013) (emphasis omitted) (quoting White, 909
F.2d at 520). Where, as here, plaintiffs qualify as
public officials—as Tah and McClain concede they
do—the First Amendment requires that they also
allege that the defamatory statement “was made
with actual malice.” New York Times Co. v. Sullivan,
376 U.S. 254, 279–80 (1964) (internal quotation
marks omitted). The First Amendment, the Supreme
Court long ago observed, enshrines “a profound
national commitment to the principle that debate on
public issues should be uninhibited, robust, and
wide-open.” Id. at 270. The actual malice standard
reflects the cornerstone First Amendment principle
that “speech relating to public officials and public
figures, as distinct from private persons, enjoys
greater protection.” Jankovic v. International Crisis
Group (Jankovic III), 822 F.3d 576, 584 (D.C. Cir.
2016).
The actual malice standard is famously “daunting.”
McFarlane v. Esquire Magazine, 74 F.3d 1296, 1308
(D.C. Cir. 1996). A plaintiff must prove by “clear and
convincing evidence” that the speaker made the
statement “with knowledge that it was false or with
reckless disregard of whether it was false or not.”
Jankovic III, 822 F.3d at 589–90 (second part quoting
New York Times Co., 376 U.S. at 279–80).
“[A]lthough the concept of reckless disregard cannot
be fully encompassed in one infallible definition,” the
Supreme Court has “made clear that the defendant
must have made the false publication with a high
degree of awareness of probable falsity,” or “must
have entertained serious doubts as to the truth of his

87596 • WIDENER• APPENDIX A

AL 7/7/21

14a
publication.” Harte-Hanks Communications, Inc. v.
Connaughton, 491 U.S. 657, 667 (1989) (alteration
omitted) (internal quotation marks omitted); see also
id. at 688 (using these formulations inter change ably). The speaker’s failure to meet an objective
standard of reasonableness is insufficient; rather the
speaker must have actually “harbored subjective
doubt.” Jankovic III, 822 F.3d at 589.
The dissent thinks this is an easy case. “In Global
Witness’s story,” the dissent asserts, “Exxon was the
briber,” Dissenting Op. at 1, yet the report admits
that “Global Witness ha[d] no evidence that Exxon
directed NOCAL to pay Liberian officials, nor that
Exxon knew such payments were occurring,” Report
at 31.
Critically, however, neither Tah nor McClain
advances this theory—in their briefing to us, they
never even mention the sentence on which the
dissent relies. They make four specific arguments in
support of their claim that Global Witness possessed
actual malice, supra at 8, not one of which is that
Global Witness had no evidence that Exxon was the
briber, and for good reason. At most, the report
implies that NOCAL, not Exxon, was the briber, thus
rendering any lack of evidence as to Exxon’s direction
or knowledge of the payments totally irrelevant. See
Report at 32 (stating that Exxon “knew the risk” and
“should have considered it possible that money the
company provided to NOCAL could have been used
as bribes in connection with Exxon’s Block 13 deal”
(emphasis added)); id. (noting that Global Witness
asked Exxon for comment on any “safeguards the
company may have put in place to prevent the
possible misuse of its funds by NOCAL” (emphasis
added)). Contrary to the dissent, see Dissenting Op.

87596 • WIDENER• APPENDIX A

AL 7/7/21

15a
at 6, a generic statement accusing someone of acting
with reckless disregard—here, Tah and McClain’s
claim that “Global Witness subjectively knew that it
had not been able to determine whether the
payments of $35,000 to Christiana Tah and Randolph
McClain were corrupt bribery payments,” Appellants’
Br. 36—simply cannot be read to shoehorn in every
conceivable actual malice theory. Indeed, when our
dissenting colleague surfaced his theory at oral
argument, it was so foreign to appellants’ counsel
that our colleague had to spoon-feed him after he
failed to get the initial hint. See Oral Arg. Tr. at 10
(“Well, no, it’s worse. Isn’t it stronger than that,
counsel? We have no evidence.”). As our dissenting
colleague himself has made clear, “we do not consider
arguments not presented to us.” Diamond Walnut
Growers, Inc. v. NLRB, 113 F.3d 1259, 1263 (D.C.
Cir. 1997) (en banc). Or put another way, “appellate
courts do not sit as self-directed boards of legal
inquiry and research, but essentially as arbiters of
legal questions presented and argued by the parties
before them.” Carducci v. Regan, 714 F.2d 171, 177
(D.C. Cir. 1983).
We turn, then, to the “legal questions presented
and argued” by Tah and McClain. They advance
what the district court described as “several
interlocking theories to support the allegation of
actual malice.” Tah, 413 F. Supp. 3d at 12. We agree
with the district court that these theories fail to
support a plausible claim that Global Witness acted
with actual malice.
Tah and McClain first allege that Global Witness
began their investigation with “a preconceived story
line” that they argue “is plainly probative of actual
malice.” Appellants’ Br. 19 (emphasis omitted). In

87596 • WIDENER• APPENDIX A

AL 7/7/21

16a
support, they point out that the letters in which
Global Witness asked for comment state that the
$35,000 payments were “most likely” bribes. Compl.
¶¶ 91–92.
Our court, however, has made clear that
“preconceived notions” or “suspicion[s]” usually do
“little to show actual malice.” Jankovic III, 822 F.3d
at 597. After all, virtually any work of investigative
journalism begins with some measure of suspicion.
Thus, “concoct[ing] a pre-conceived storyline” by
itself is “not antithetical to the truthful presentation
of facts.” Id. at 597 (internal quotation marks
omitted). Moreover, because Global Witness sent the
letters toward the end of its investigative process and
just a few weeks before publication, the letters
provide no support at all for the notion that Global
Witness’s conclusion was preconceived. As the
district court correctly observed, “[t]hat Global
Witness had arrived at its conclusion, right or wrong,
by the time it reached out for comment and shortly
before publication is commonplace and no surprise.”
Tah, 413 F. Supp. 3d at 13. Finally, seeking comment
in advance of publication is a standard journalistic
practice. See, e.g., Responses, Associated Press,
http://www.ap.org/about/news-values-and-principles/
telling-the-story/responses (“We must make significant efforts to reach anyone who may be portrayed in
a negative way in our stories, and we must give them
a reasonable amount of time to get back to us before
we move the story.”). Drawing a pernicious inference
from adherence to such professional standards would
turn First Amendment case law on its head. In any
event, even an “extreme departure from professional
standards” is insufficient to prove actual malice on
its own. Harte-Hanks, 491 U.S. at 665.

87596 • WIDENER• APPENDIX A

AL 7/7/21

17a
Next, Tah and McClain seek to draw an inference
of actual malice from Global Witness’s failure to
credit their denials. This too finds no support in our
First Amendment case law. A publisher “need not
accept ‘denials, however vehement; such denials are
so commonplace in the world of polemical charge and
countercharge that, in themselves, they hardly alert
the conscientious reporter to the likelihood of error.’”
Lohrenz v. Donnelly, 350 F.3d 1272, 1285 (D.C. Cir.
2003) (quoting Harte-Hanks, 491 U.S. at 691 n.37).
Although consistent with each other, the denials
contain no “evidence that could be readily verified” of
the sort that would provide “obvious reasons to doubt
the veracity of [Global Witness’s] publication.” Id.
(internal quotation marks omitted). As the district
court pointed out, the denials “fail” even to “contest
the facts that are [stated] in the Report.” Tah, 413 F.
Supp. 3d at 13.
According to the dissent, our description of the law
is “obviously fallacious,” Dissenting Op. at 10, an odd
accusation given that we have done nothing more
than quote from our court’s decision in Lohrenz.
Undaunted, the dissent attempts to distinguish
Lohrenz on the ground that Global Witness “had ‘no
evidence’—and no witnesses—to contradict the six
denials.” Id. at 11 (quoting Report at 31). But that
quotation comes from the same sentence in Catch me
if you can that the dissent relies on for the
proposition—irrelevant to the arguments made by
Tah and McClain, see supra at 13—that Global
Witness had no evidence that Exxon had paid bribes.
Contrary to the dissent, moreover, nothing in the
six denials comes close to the kind of “readily
verifi[able]” evidence, Lohrenz 350 F.3d at 1285,
needed to support a plausible—and we emphasize the

87596 • WIDENER• APPENDIX A

AL 7/7/21

18a
word plausible—case that Global Witness published
with a “high degree of awareness of probable falsity,”
Harte-Hanks, 491 U.S. at 688 (alteration omitted)
(internal quotation marks omitted). See Dissenting
Op. at 12. To be sure, as the dissent points out, the
denials state that more than 140 others, such as
NOCAL drivers and janitors, also received bonuses.
But as the report explains, “the vast majority of these
payments were smaller . . . by two orders of magnitude”
and “were not made to people who signed the Exxon
deal.” Report at 32. Indeed, the denials themselves
characterized the payments the HTC received as
rewards for those “who performed exceptionally in
conducting the negotiations on the Exxon Contract,”
a rationale obviously inapplicable to payments to
other company employees. Compl. ¶ 93 (quoting Tah’s
denial); see also id. ¶ 94 (quoting McClain’s denial,
which stated “[a]ny bonus given by our superiors was
in acknowledgement of the Team’s extraordinary
work after the completion of the landmark
Contract”). It is also true that the denials explain, as
does the report, that the pot of money used to make
the payments was “negotiated” as part of the larger
Exxon deal, Dissenting Op. at 12; Report at 32, but
we fail to see how that contradicts the idea that the
payments were bribes from NOCAL. The dissent
refers to the NOCAL board resolution approving the
payments, presumably because the denials claim
that the payments were “authorized by NOCAL’s
Board of Directors.” Compl. ¶ 93 (quoting Tah’s
denial). But according to the report, Global Witness
“requested, but had not yet received” a copy of the
board resolution, and the complaint alleges nothing
to the contrary. Report at 31.

87596 • WIDENER• APPENDIX A

AL 7/7/21

19a
Tah and McClain next argue that Global Witness
harbored ill-will and desired “to catch Exxon and
[CEO Rex] Tillerson in scandal.” Appellants’ Br. 25.
In support, they rely on the fact that the report is
critical of Exxon and that Global Witness
subsequently sent letters reiterating the report’s
conclusions to the Department of Justice and the
Securities and Exchange Commission. Our court,
however, has made clear that evidence of ill will “is
insufficient by itself to support a finding of actual
malice.” Tavoulareas v. Piro, 817 F.2d 762, 795 (D.C.
Cir. 1987) (en banc); see also Harte-Hanks, 491 U.S.
at 665 (“Petitioner is plainly correct in recognizing . . .
that a newspaper’s motive in publishing a story . . .
cannot provide a sufficient basis for finding actual
malice.”). Regardless, neither the report’s critical
nature nor the letters sent to the Attorney General
and the SEC plausibly supports an ill-will theory. As
the district court aptly put it, the report’s “conclusion
is not evidence of its conception.” Tah, 413 F. Supp.
3d at 13.
The implications of Tah and McClain’s theory are
breathtaking: they would find support for an
inference of actual malice in a wide swath of
investigative journalism that turns out to be critical
of its subject. “It would be sadly ironic for judges in
our adversarial system to conclude . . . that the mere
taking of an adversarial stance is antithetical to the
truthful presentation of facts.” Tavoulareas, 817 F.2d
at 795.
Finally, Tah and McClain argue that “the stunning
failure of Global Witness to include . . . Seward
Cooper, as among the [HTC] members who received a
$35,000 bonus” reveals actual malice because Cooper,
along with Tah, determined that the payments were

87596 • WIDENER• APPENDIX A

AL 7/7/21

20a
legal. Appellants’ Br. 34. We do not see how this
omission shows awareness of falsity or reckless
disregard for the truth. If anything, that one of the
lawyers responsible for conducting a legal analysis of
the payments was himself in line to receive one
makes the payments even more suspicious.
For all these reasons, Tah and McClain have failed
to plausibly allege that Global Witness acted with
actual malice. This deficiency proves fatal not only to
their defamation claims but to their false light claims
as well. See Farah v. Esquire Magazine, 736 F.3d
528, 540 (D.C. Cir. 2013) (explaining that a “plaintiff
may not use related causes of action to avoid the
constitutional requisites of a defamation claim” and
that “[t]he First Amendment considerations that
apply to defamation therefore apply also to
[plaintiffs’] counts for false light” (internal quotation
marks omitted)).
IV.
We affirm the district court’s dismissal of the
complaint, as well as its denial of the anti-SLAPP
motion.
So ordered.

87596 • WIDENER• APPENDIX A

AL 7/7/21

21a
SILBERMAN, Senior Circuit Judge, dissenting in
part: Global Witness (Appellee) falsely insinuated
that former Liberian officials (Appellants) took bribes
from Exxon. It admitted that it had no evidence that
Exxon had contacted Appellants, directly or
indirectly, with respect to the alleged payments. And
the evidence Global Witness did have suggested the
payments at issue were proper staff bonuses, not
bribes. Nevertheless, the Majority creates a whole
new theory of the case—one not advanced by any
Party—that the Appellants were bribed not by
Exxon, but by their own principal, the National Oil
Company. According to the Majority, its new
narrative is so unassailable that, even at the 12(b)(6)
stage, it precludes an inference that Global Witness
harbored subjective doubts as to the implied
accusation of bribery.
I
As Global Witness explained, “this is a story of
bribery.” J.A. 58. Bribery, as it is commonly
understood, involves a quid pro quo. See McDonnell
v. United States, 136 S. Ct. 2355, 2372 (2016); accord
J.A. 82 (“[A] payment given so a public servant will
undertake an official act.”). As such, bribery has
three necessary components: A briber, a bribee, and
an exchange. In Global Witness’s story, it seems
obvious that Exxon was the briber, Appellants were
the bribees, and the trade was $35,000 to ensure the
deal goes through. Without one element, there is
obviously no bribery. In other words, if no briber—or
no bribe—then no bribee.
In its cross-appeal, Global Witness contends that
its Report was not even defamatory—it simply raised

87596 • WIDENER• APPENDIX A

AL 7/7/21

22a
questions. Of course, Appellants disagree, claiming
that the Report, Catch me if you can, falsely
insinuated that they took bribes from Exxon to
approve the Block 13 deal.
The district court easily determined that Global
Witness’s story contained the defamatory implication
that Appellants took bribes from Exxon. Tah v. Glob.
Witness Publ’g, Inc., 413 F. Supp. 3d 1, 10 (D.D.C.
2019) (“[T]he import of the Report [is] that there was
bribery—either by [the National Oil Company],
Exxon, or both—in connection with the post-negotiation
payments to Liberia’s chief representatives.”); id. at 9
(Global Witness’s Report “literally [drew] a line
between Exxon’s money, the bonuses, and the sale of
the license for Block 13”); accord Appellant Br. 15
(“The story was that Exxon . . . brazenly engineered a
Liberian oil purchase through bribery.”). According to
Global Witness, Exxon’s payment to the National Oil
Company and the subsequent bonuses were “unusual”
and “suspicious.” J.A. 82, 83, 85. Exxon, as Global
Witness saw it, “was under no obligation to pay most
of the money” it transferred to the National Oil
Company; “$4 million of its $5 million payment was
characterized as a ‘bonus.’” J.A. 84 (emphasis in
original). And, as Global Witness reminds its readers,
the National Oil Company has a record of bribing
officials on behalf of oil companies. The “bonuses”
then paid to the officials were, Global Witness wrote,
“unusual, large payments to officials who signed the
Exxon deal.” J.A. 85. Global Witness further noted
that these individual “bonuses” were likely derived
from the same bank account into which Exxon paid
the initial $4 million “bonus” to the National Oil
Company.

87596 • WIDENER• APPENDIX A

AL 7/7/21

23a
The court explained how Global Witness “tied
ExxonMobil’s payments [to the National Oil
Company] for the acquisition of rights in Block 13
with how [the Company] shared some of that money
with its negotiators, including Plaintiffs.” Tah, 413 F.
Supp. 3d at 9. One chart in the Report tracked
payments from Exxon to the National
Oil Company to members of the Hydrocarbon
Technical Committee, including Appellants
Christiana Tah and Randolph McClain. The district
court noted that this chart, listing the amount of
each official’s bonus, “had the effect of literally
drawing a line between Exxon’s money, the bonuses,
and the sale of the license for Block 13.” Id.
The Report also connected Exxon to the bribes by
making repeated parallels to the 2003 transaction. In
that deal, Global Witness asserted that the National
Oil Company paid bribes to legislators on behalf of
the Broadway Consolidated oil company to secure
ratification of its purchase. J.A. 68; see also J.A. 84
(noting that the National Oil Company had also paid
bribes on behalf of Oranto Petroleum). And now,
Exxon was stepping into Broadway’s shows. As the
district court explained, “a reasonable reader easily
could have understood the Report to imply that the
[earlier legislative] bribes and the 2013 [Technical
Committee] bonuses were of a piece.” Tah, 413 F.
Supp. 3d at 9. And, the district judge noted, “[i]f that
were not the case, the Report would have no reason
to advocate for an investigation” (since there is no
direct evidence of bribery). Id. at 10 (emphasis
added).
The court also rejected the Appellee’s argument
that its story actually negated any inference of

87596 • WIDENER• APPENDIX A

AL 7/7/21

24a
bribery because it expressly stated that “Global
Witness has no evidence that Exxon directed [the
National Oil Company] to pay Liberian officials, nor
that Exxon knew such payments were occurring.” Id.
(quoting J.A. 83). After the Report repeatedly
insinuated bribery, this disclaimer “did not negate
the inference that ExxonMobil’s money was, in part,
paid as bribes to [Company] representatives who
signed the lease agreement.” Id. This statement
merely “admit[ed] that the Global Witness suspicions
and calls for investigations of ExxonMobil and [the
National Oil Company] lacked any evidence that the
former had involvement in monies paid to employees
of the latter.” Id. (emphasis in original).
II
My disagreement with the district court is limited
to the actual malice question (my disagreement with
the Majority is much broader). In New York Times
Co. v. Sullivan, 376 U.S. 254 (1964), the Supreme
Court set forth the well-known rule that, to hold a
defendant liable for defaming a public figure, a
plaintiff must prove the defendant acted with “actual
malice.” Id. at 279–80. That is, with knowledge that
the statement was false or with reckless disregard for
the truth. Id. at 280. As the Supreme Court saw it,
this scienter requirement appropriately balanced (as
a policy matter) the vindication of reputational
harms with the need to protect unintentional
falsehoods that inevitably arise as part of vibrant
debate. Id. at 271–72. The actual-malice rule makes
the speaker’s state of mind the constitutional
gravamen in any defamation case brought by a public
figure.

87596 • WIDENER• APPENDIX A

AL 7/7/21

25a
The Majority emphasizes that actual malice is a
subjective test. Majority Op. 12 (citing Jankovic v.
Int’l Crisis Grp., 822 F.3d 576, 589 (D.C. Cir. 2016)).
But it is important not to confuse what a plaintiff
must ultimately show with the kind of evidence he
may use to make that showing. It is the rare case in
which a defendant will confess his state of mind and
thus allow the plaintiff to prove actual malice with
direct evidence. Accordingly, as the Appellee concedes,
actual malice “is ordinarily inferred from objective
facts.” Washington Post Co. v. Keogh, 365 F.2d 965,
967 (D.C. Cir. 1966); accord Appellee Br. 50.
In St. Amant v. Thompson, the Supreme Court
listed three examples of objective circumstances that
permit a subjective inference of actual malice: (1)
“where a story is fabricated by the defendant . . . or is
based wholly on an unverified anonymous telephone
call;” (2) “when the publisher’s allega tions are so
inherently improbable that only a reckless man
would have put them in circulation;” and (3) “where
there are obvious reasons to doubt” the basis for the
story. 390 U.S. 727, 732 (1968); see also Tavoulareas
v. Piro, 817 F.2d 762, 790 (D.C. Cir. 1987) (en banc).
So even in the absence of contradictory evidence, a
story may be so facially implausible or factually
flimsy that the jury may infer that it must have been
published with reckless disregard for the truth. See
Hunt v. Liberty Lobby, 720 F.2d 631, 646 (11th Cir.
1983). And even assuming a plausible story, the
question remains whether “the cumulative force of
the evidence to the contrary” should give the
publisher obvious reasons for doubt. McFarlane v.
Sheridan Square Press, Inc., 91 F.3d 1501, 1514
(D.C. Cir. 1996); see Jankovic, 822 F.3d at 597. If the

87596 • WIDENER• APPENDIX A

AL 7/7/21

26a
publisher moves forward without reasonably
dispelling his doubts, actual malice may be inferred.
Lohrenz v. Donnelly, 350 F.3d 1272, 1284 (D.C. Cir.
2003).
St. Amant’s examples thus suggest a straight forward framework for evaluating contentions of
actual malice. We first assess the inherent
plausibility of a defendant’s story as well as the facts
in support. And if we find the story objectively
plausible, we then ask whether evidence to the
contrary creates obvious reasons for doubt.
*

*

*

I turn to whether Global Witness’s accusation that
Exxon bribed the Appellants—the case before us—is
facially plausible. Appellants claim that Global
Witness knew it lacked any support for insinuating
that the payments to Tah and McClain were bribes.
Thus, a jury could infer that Global Witness
subjectively doubted the truth of its Report.
I agree. In my view, because Global Witness’s story
is obviously missing (at least) one necessary
component of bribery, it is inherently improbable.
Although it accused Appellants of taking bribes from
Exxon, Global Witness admits that it had “no
evidence that Exxon directed the [National Oil
Company] to pay Liberian officials, nor that Exxon
knew such payments were occurring.” J.A. 83
(emphasis added). In other words, despite all its
investigating, Global Witness uncovered nothing to
demonstrate that Exxon was the briber and nothing
to even suggest there was an agreed upon exchange.
Accord Tah, 413 F. Supp. 3d at 10 (“Global Witness’s
suspicions and calls for investigations of ExxonMobil
and [the National Oil Company] lacked any evidence

87596 • WIDENER• APPENDIX A

AL 7/7/21

27a
that the former had involvement in monies paid to
employees of the latter.”) (emphasis in original). And
with no privity between Exxon and the Technical
Committee members, it is bizarre to accuse
Appellants of taking a bribe. As St. Amant teaches, it
is sufficient to infer—on this basis alone—that
Appellee acted with knowing disregard for the
veracity of its publication.
The Majority’s assertion that this argument was
never made by the Appellants leads me to wonder
whether we received the same briefs. In my copy,
Appellants argue that “Global Witness subjectively
knew that it had not been able to determine whether
the payments of $35,000 to Christiana Tah and
Randolph McClain were corrupt bribery payments.
Yet . . . Global Witness proceeded to present to
readers the defamatory message that in fact [] Tah
and [] McClain had taken bribes.” Appellant Br. 36
(emphasis in original). That sounds to me a whole lot
like accusing Global Witness of publishing its story
with no evidence to back it up. The Majority,
moreover, faults me for assessing the inherent
(im)plausibility of Global Witness’s story, without a
specific request from Tah and McClain to do so. But
(as discussed) “inherently implausible” is a legal
standard by which we assess Appellants’
arguments—not an argument to be advanced. See
Kamen v. Kemper Fin. Servs., Inc., 500 U.S. 90, 99
(1991); cf. Eldred v. Ashcroft, 255 F.3d 849, 853 (D.C.
Cir. 2001) (Sentelle, J., dissenting) (“Merely because
the parties fail to advance the proper legal theory
underlying their claim does not—indeed cannot—
prevent a court from arriving at the proper legal
disposition.”).

87596 • WIDENER• APPENDIX A

AL 7/7/21

28a
To be sure, Appellants did not quote the “no
evidence” paragraph in their brief; it was “the Court”
at oral argument that focused on this damning
language. But it is hardly a new argument; it is only
evidence—although powerful evidence—supporting
Appellants’ argument. Apparently, the Majority also
recognizes the significance of the passage and wishes
to rule it out of order. But the Appellee itself injected
this statement into the controversy when it
brandished it as supposedly exculpatory evidence.
Appellee Br. 19, 35.
Global Witness points to other facts that support
its story, but none amount to a hill of beans. It
emphasizes the obvious point: Payments were made
to Appellants. Then it notes these payments were
“likely” sent from the same account where Exxon
deposited its $4 million “bonus” to the National Oil
Company itself. Although a sly suggestion of
wrongdoing, when you think about it, it’s a non
sequitur. If that were support for a bribe, any
investment banker’s commission could be illegal.
Next, Global Witness justifies its story based on a
past “history” of bribery by the National Oil
Company. The Company had previously, in
connection with the 2003 bid, paid out bribes to
legislators on behalf of another oil company in order
to ratify a transaction. Our situation is quite
different; in this case, the recipients of the “bribes”
were the National Oil Company’s own agents and
employees. And connecting bribery to the 2013
circumstances from the wholly separate 2003 bid—in
which Tah and McClain were not even involved—is a
grossly unfair inference. Global Witness attempts to
tar the conduct of two parties to a transaction with

87596 • WIDENER• APPENDIX A

AL 7/7/21

29a
the prior bad acts of entirely different people. That is
entirely illegitimate.
It is significant, moreover, that the National Oil
Company paid out bonuses to all those involved in
the negotiations—including American consultants—as
well as low-ranking employees. Yet the story focuses
on members of the Technical Committee as if they
were special transgressors. But for Global Witness’s
story to be true, Exxon was somehow spread ing
bribes left and right like Johnny Appleseed. The
much more obvious explanation is that the “bonuses”
were in fact bonuses paid for outstanding
performance. Certainly at the 12(b)(6) stage,
Appellants are entitled to that inference (Global
Witness is not entitled to its speculative inference to
the contrary). See Palin v. New York Times Co., 940
F.3d 804, 815 (2d Cir. 2019).
The timing and manner of the payments are
further indications of bonuses, not bribes. Recall that
in connection with Broadway’s 2003 bid for Block 13,
Global Witness explained that the National Oil
Company supposedly paid most of Broadway’s bribes
to legislators before approval of the deal. In contrast,
the 2013 payments from the National Oil Company
to its own negotiators, staff, and consultants occurred
after the deal was completed. J.A. 67. The latter
payments—as Global Witness knew—were only
initiated after the approval of a board resolution
authorizing up to $500,000 in bonuses. And, as
Global Witness also acknowledges, the board had the
full legal authority to take this action. These
payments, openly made, are also indicia of proper
bonuses; bribes, which are illegal everywhere, are
typically made in the dark. See DiBella v. Hopkins,
403 F.3d 102, 117 (2d Cir. 2005) (defendant knew

87596 • WIDENER• APPENDIX A

AL 7/7/21

30a
that payments to plaintiff were not surreptitious,
which supported the jury’s conclusion that the
defendant made a bribery accusation with actual
malice).
For all these reasons, I consider Global Witness’s
Report inherently improbable. On its face, it’s a
house of cards: With “no evidence” supporting Exxon
as a briber, Tah and McClain could not be Exxon’s
bribees. Nor is there any evidence—not a shred—that
the bonuses paid by the National Oil Company to
Appellants were themselves bribes. There is no
indication that the National Oil Company had a
corrupt motive, nor that Appellants were asked to
perform an illegal or improper task. I would therefore
conclude, based on the foregoing alone, that it is
sufficient to infer actual malice at the 12(b)(6) stage
since the story is inherently improbable.
*

*

*

There is more: Global Witness had additional,
“obvious reasons” to doubt its Report, which would
also support an inference of actual malice. St. Amant,
390 U.S. at 732 (example three). All the eyewitnesses
to the transaction that responded to Global Witness
explained precisely why it was wrong. And Global
Witness had no facts that would cause it to discount
these explanations.
Six individuals—four members of the Technical
Committee and two consultants—responded to
Global Witness’s accusations of bribery. Each denied
that bribery occurred. At least four offered specific,
fact-based explanations as to why Global Witness
was wrong. Christiana Tah (a Yale Law School
graduate) 1 explained that bonus payments were
1

That surely is not inculpatory.

87596 • WIDENER• APPENDIX A

AL 7/7/21

31a
made to all National Oil Company staff after the
Exxon deal was concluded. Robert Sirleaf, a
Technical Committee member and chair of the
Company’s Board of Directors, similarly explained
that bonuses were paid to the entire company after
the Parties concluded the contract and exchanged
consideration. And, he added, a bonus was called for:
Liberia received a signing payment fifteen times
larger than in any prior transaction. Natty Davis,
another Committee member and the Chair of the
National Investment Commission, added that the
decision to pay the bonuses was approved by a formal
resolution of the Company’s board. Randolph
McClain noted that the Exxon contract was
“extraordinary enough to be used as a model for all
future contracts of this nature.” J.A. 44.
Two American consultants—not mentioned by the
Majority and not targeted by Global Witness’s
story—also told Global Witness that its Report was
false. Each received $15,000 bonuses. One
consultant, Jeff Wood, explained that Exxon’s
payment to the National Oil Company was not
“voluntary” as Global Witness reported—it was
negotiated as part of the transaction. J.A. 45.
Moreover, Wood noted, it made no sense to equate
legislative bribes paid following Broadway’s 2003 bid
to the National Oil Company’s 2013 payments to its
own staff. Wood again explained that all the employees
of the National Oil Company received payments, not
just those that signed the deal. Last, Wood wrote
that it was absurd to infer bribery because no similar
bonuses had been paid in recent years. Since no other
deals had been concluded, there was no success to
reward.

87596 • WIDENER• APPENDIX A

AL 7/7/21

32a
The Majority, however, asserts that a publisher
“need not accept denials, however vehement” as a
matter of law. Majority Op. 15 (quoting Lohrenz, 350
F.3d at 1285); see also Appellee Br. 54 (“[D]enials do
not and cannot constitute ‘evidence’ as a matter of
law.”). This proposition is obviously fallacious.2 It of
course depends on the substance and context of the
denial. If denials were legally irrelevant, then any
response of the target could be ignored.3 Indeed, the
Supreme Court—even while professing in dicta that
the mere existence of a denial need not be
considered—has evaluated the contents of denials to
determine whether a publisher acted with actual
malice. See Harte-Hanks Commc’ns, Inc. v.
Connaughton, 491 U.S. 657, 691–92 (1989). And it
has noted that certain key denials should reasonably
be expected to kill stories. Id. at 682.
To be sure, we discounted the probative value of
the denials in Lohrenz v. Donnelly. 350 F.3d 1272.
2

The Majority protests that it has “done nothing more
than quote” from Lohrenz. Majority Op. 15–16. But those
quotations (strung together out of order) do not give an
accurate impression of our holding in that case. In Lohrenz,
we held at the summary judgment stage that “[u]nlike
evidence that could be readily verified, the Navy’s denials did
not give [the defendant] ‘obvious reasons’ to doubt the
veracity of her publication.” 350 F.3d at 1285 (emphasis
added and internal citations omitted). This was because, as
we explained, those denials were mere assertions contradicted by other evidence. Id.
3

Suppose a reporter plans to accuse X of robbery in New
York City on December 1st. But X denies the allegation,
explaining that he was in Los Angeles on that date. Obviously,
this denial would need to be considered and verified by a
responsible reporter.

87596 • WIDENER• APPENDIX A

AL 7/7/21

33a
Lohrenz involved a publication that questioned the
competence of a female fighter pilot. According to the
story, the pilot was substandard, should not be
flying, and was only assigned to the F-14 program on
account of a “politically driven policy.” Id. at 1284.
The publisher’s source was one of the pilot’s former
training officers, who we characterized as “a knowledgeable, non-anonymous source.” Id. Furthermore,
the publisher had obtained additional information
from the Navy that confirmed the training officer’s
claims—namely, that the pilot had received a
number of accommodations during training, which
other officers agreed were “excessive.” J.A. 1285.
Nevertheless, the Navy denied the story, and officials
told the publisher that its conclusions were
inaccurate.
But as we explained, the fact of a denial, in itself,
“hardly alert[s] the conscientious reporter to the
likelihood of error.” Lohrenz, 350 F.3d at 1285
(quoting Harte-Hanks, 491 U.S. at 691 n.37). Rather,
the specific content of a denial may well give the
publisher obvious reasons to doubt the veracity of the
publication. See id.; Montgomery v. Risen, 197 F.
Supp. 3d 219, 263 (D.D.C. 2016), aff’d, 875 F.3d 709
(D.C. Cir. 2017). So in Lohrenz, we reasoned that the
Navy’s denials were contradicted by the publisher’s
interview with the flight instructor. 350 F.3d at 1285.
In light of the evidence on both sides of the question,
the Lohrenz publisher did not have any obvious
reason to doubt its story.
Global Witness, however, did not have evidence on
both sides of the issue. It had “no evidence”—and no
witnesses—to contradict the six denials. The
cumulative balance of the evidence thus gives Global

87596 • WIDENER• APPENDIX A

AL 7/7/21

34a
Witness obvious reasons for doubt. See McFarlane,
91 F.3d at 1514.
I am dumbfounded by the Majority’s assertion that
the denials in our case contain “no readily verifiable
information . . . that would provide ‘obvious reasons to
doubt.’” Majority Op. 15. The denials were specific,
and it was within Global Witness’s power to easily
inquire into whether other employees received
bonuses, the content of the Board’s resolution
approving the bonuses, and whether the $4 million to
the National Oil Company was negotiated as part of
the purchase price (etc.).
The Majority discounts these facts by weighing the
evidence and drawing inferences against Tah and
McClain. See Majority Op. 17 (“[T]he dissent refers to
the NOCAL board resolution approving the payments
. . . . But . . . Global Witness ‘requested, but had not yet
received’ a copy . . . and the complaint alleged nothing
to the contrary.”) (emphases added); id. at 16
(discounting the fact that bonuses were paid to all
employees because the largest bonuses were paid to
the Technical Committee). Such weighing of the
evidence is, of course, impermissible at the 12(b)(6)
stage. As the Second Circuit recently reiterated in
another defamation case, “[I]t is not the [] court’s
province to dismiss a plausible complaint because it
is not as plausible as the defendant’s theory.” Palin,
940 F.3d at 815.
*

*

*

In sum, the dramatic indication of actual malice is
the statement in Global Witness’s story to which we
have previously referred. J.A. 83 (Global Witness had
“no evidence that Exxon directed the [National Oil

87596 • WIDENER• APPENDIX A

AL 7/7/21

35a
Company] to pay Liberian officials, nor that Exxon
knew such payments were occurring.”).4 As we noted,
Global Witness raised this point itself in a futile
effort to rebut defamation. But Global Witness is
hoist on its own petard. As I have explained, rarely
does he who defames another actually admit doubts
as to the truth of the accusation. This statement
comes as close as it gets to such a concession. In light
of that admission, Global Witness’s story is not just
implausible, it’s ridiculous.
Circumventing the devastating impact of this
statement, the Majority creates a new narrative: The
Global Witness Report accused only the National Oil
Company—not Exxon— of paying bribes. With all due
respect, the Majority is employing judicial jiu-jitsu. At
no time did the Appellee even hint—in its briefs or
oral argument—that was its defense. The Appellee
argues the district court erred in finding the Report
defamatory for only three reasons: because (1) it calls
for investigations, Appellee Br. 31–34; (2) it includes
a disclaimer that Global Witness had not determined
the payments were improper, Appellee Br. 34–35;
and (3) the Report never uses the word “bribe” to
describe the payments, Appellee Br. 35–36. The
Majority’s judicial refashioning of the defamatory
4

Perhaps the lack of evidence explains why the district
court was confused as to whether the bribes came from
Exxon—which is the obvious import of the story—or the
National Oil Company— which makes no sense. See Tah, 413
F. Supp. 3d at 10 (“[T]he import of the Report [was] that
there was bribery—either by [the National Oil Company],
Exxon, or both—in connection with the post-negotiation
payments to Liberia’s chief representatives.”). Of course,
“both” implies that even though the National Oil Company
may have paid out the bribes, it did so on Exxon’s behalf.

87596 • WIDENER• APPENDIX A

AL 7/7/21

36a
implication is entirely illegitimate. See Diamond
Walnut Growers, Inc. v. NLRB, 113 F.3d 1259, 1263
(D.C. Cir. 1997) (en banc).
The Majority cloaks its improper fashioning of a
wholly new argument by accusing me of doing the
same. But if I’m misreading Global Witness’s Report
to imply that Exxon bribed Appellants, I’m in quite
good company. After all, the district court endorsed
my reading. Tah, 413 F. Supp. 3d at 10. So did the
Appellant. Appellant Br. 15, 23–24. And the Liberian
government. See J.A. 42. Even the Appellee assumes
that if the Report contains a defamatory implication,
it would be that Exxon bribed Tah and McClain.
Otherwise, the Appellee would not have argued its
disclaimer, that “Global Witness has no evidence that
Exxon directed [the National Oil Company] to pay
Liberian officials,” is somehow exculpatory. Appellee
Br. 34–35. As the Majority recognizes, this statement
is irrelevant if one assumes that the National Oil
Company was the briber. In sum, the Majority’s
theory not only falls out of the clear blue sky, but it is
also a sub silento overruling of the district judge.
After all, Exxon looms over the whole story. It is
impossible to visualize the article without Exxon
playing the part of the evil genius, orchestrating the
implied corruption. The Majority’s theory is not just a
new argument—it’s a new case.
Perhaps the Majority’s theory is not advanced by
any Party because the theory makes even less sense
than if Exxon were the briber. In the revisionist view,
the National Oil Company bribed its own agents and
employees to do their jobs. Tellingly, the Majority
offers no motive for a bribe. After all, the Liberian
government ordered the sale of the Block 13 license

87596 • WIDENER• APPENDIX A

AL 7/7/21

37a
for failure to make any progress in developing
potential oil reserves. J.A. 69. So there is no reason
to think that the Appellants had the authority to
hold up the transaction. Nor is there a reason to
believe the National Oil Company would have
benefitted from the delay.
In any event, the Majority’s narrative is procedurally
inappropriate. At the 12(b)(6) stage, we accept all
reasonable defamatory readings of the Report
advanced by the plaintiff. See Weyrich v. New
Republic, Inc., 235 F.3d 617, 627 (D.C. Cir. 2001). As
the district court ably explained, there can be no
doubt that one defamatory implication of the Report
is that Exxon bribed Appellants. That allegation—
actually pressed by Tah and McClain—must be
analyzed for actual malice.
*

*

*

The Majority’s opinion creates a profoundly
troubling precedent. By fashioning a different
defamatory implication on its own, the Majority
embraces a telling example of judicial “creativity.”
Still, its approach seems sui generis; I rather doubt
we will ever see its like again. On the other hand, the
Majority’s misunderstanding of the doctrinal
framework of New York Times v. Sullivan’s actual
malice concept is profoundly erroneous. And that will
distort our libel law. But perhaps most troublesome is
the conflict it creates with the Second Circuit (not to
mention the Supreme Court) concerning the role of a
court when applying Rule 12(b)(6) in the libel
context. “The test is whether the complaint is
plausible, not whether it is less plausible than an
alternative explanation.” Palin, 940 F.3d at 815.

87596 • WIDENER• APPENDIX A

AL 7/7/21

38a
III
After observing my colleagues’ efforts to stretch the
actual malice rule like a rubber band, I am prompted
to urge the overruling of New York Times v. Sullivan.
Justice Thomas has already persuasively demonstrated
that New York Times was a policy-driven decision
masquerading as constitutional law. See McKee v.
Cosby, 139 S. Ct. 675 (2019) (Thomas, J., concurring
in denial of certiorari). The holding has no relation to
the text, history, or structure of the Constitution, and
it baldly constitutionalized an area of law refined
over centuries of common law adjudication. See also
Gertz v. Robert Welch, Inc., 418 U.S. 323, 380–88
(1974) (White, J., dissenting). As with the rest of the
opinion, the actual malice requirement was simply
cut from whole cloth. New York Times should be
overruled on these grounds alone.
Nevertheless, I recognize how difficult it will be to
persuade the Supreme Court to overrule such a
“landmark” decision. After all, doing so would incur
the wrath of press and media. See Martin Tolchin,
Press is Condemned by a Federal Judge for Court
Coverage, New York Times A13 (June 15, 1992)
(discussing the “Greenhouse effect”). But new
considerations have arisen over the last 50 years that
make the New York Times decision (which I believe I
have faithfully applied in my dissent) a threat to
American Democracy. It must go.
Twenty-five years ago, I urged the overruling of a
similarly illegitimate constitutional decision, Monroe
v. Pape, 365 U.S. 167 (1961). Our court was
confronted with the vexing question of whether
qualified immunity shielded government officials
accused of constitutional torts from discovery into

87596 • WIDENER• APPENDIX A

AL 7/7/21

39a
their motivations. See Crawford-El v. Britton, 93
F.3d 813, 815 (D.C. Cir. 1996) (en banc), vacated, 523
U.S. 574 (1998). In a concurring opinion, I suggested
a solution to accommodate Pape: When a defendant
offers a proper motive, we should allow an objective
inquiry into only whether the proffered motive is
pretextual. Id. at 834–35; cf. Halperin v. Kissinger,
807 F.2d 180, 188 (D.C. Cir. 1986). When CrawfordEl reached the Supreme Court, four Justices agreed
with my approach. 523 U.S. at 602 (Rehnquist, C.J.,
dissenting); id. at 612 (Scalia, J., dissenting).
But I went even further in my concurrence: I urged
the Supreme Court to overrule Pape (and, while
they’re at it, Bivens5 as well). 93 F.3d at 832. Justices
Scalia and Thomas agreed with me. Crawford-El, 523
U.S. at 612 (Scalia, J. dissenting). Both Pape and
Bivens are prime examples of rank policymaking by
the High Court, not legitimate exercises of
constitutional interpretation. See also Hernandez v.
Mesa, 140 S. Ct. 735, 752 (2020) (Thomas, J.,
concurring) (continuing to call for the Court to
abandon Bivens).
I recognized, however, that convincing the Court to
overrule these precedents would be an uphill battle.
As I wrote, the Court has committed itself to a
constitutional Brezhnev doctrine.6 That is, once the
5

Bivens v. Six Unknown Named Agents of Fed. Bureau
of Narcotics, 403 U.S. 388 (1971).
6

“When forces that are hostile to socialism try to turn the
development of some socialist country towards capitalism, it
becomes not only a problem of the country concerned, but a
common problem and concern of all socialist countries.” Leonid
Brezhnev, Remarks to the Fifth Congress of the Polish United
Workers’ Party (Nov. 13, 1968). Thus, one a country has turned
communist, it can never be allowed to go back.

87596 • WIDENER• APPENDIX A

AL 7/7/21

40a
Court has “constitutionalized” a new area of the law,
it will never willingly retreat. The long-term
consequence of this policy is obvious: An everexpanding sphere of influence for the Judiciary at the
expense of the policymaking branches.
In a short concurring opinion, Justice Kennedy
lamented my criticism. He warned that “[w]e must
guard against disdain for the judicial system,” i.e.,
the Supreme Court. Crawford-El, 523 U.S. at 601. In
his view, criticism of the Court is tantamount to an
attack on the Constitution. He cautioned, “if the
Constitution is to endure, it must from age to age
retain ‘th[e] veneration which time bestows.’” Id.
(quoting The Federalist No. 49, at 314 (Madison) (C.
Rossiter ed., 1961)). Apparently, maintaining a
veneer of infallibility is more important than
correcting fundamental missteps.
To the charge of disdain, I plead guilty. I readily
admit that I have little regard for holdings of the
Court that dress up policymaking in constitutional
garb. That is the real attack on the Constitution, in
which—it should go without saying—the Framers
chose to allocate political power to the political
branches. The notion that the Court should somehow
act in a policy role as a Council of Revision is illegitimate. See 1 The Records of the Federal Convention of
1787, at 138, 140 (Max Farrand ed., 1911). It will be
recalled that maintaining the Brezhnev doctrine
strained the resources and legitimacy of the Soviet
Union until it could no longer be sustained.
Admittedly, the context of the Times opinion made
the Court’s decision attractive as a policy matter. The
case centered on a full-page advertisement soliciting

87596 • WIDENER• APPENDIX A

AL 7/7/21

41a
donations for the civil rights movement and legal
defense of Dr. Martin Luther King, Jr. 376 U.S. at
256–57. The advertisement claimed that civil rights
proponents faced an “unprecedented wave of terror”
from “Southern violators” denying constitutional
guarantees to African Americans. Id. at 256. It
described “truckloads of police armed with shotguns
and tear-gas” that “ringed” a college campus in
Montgomery, Alabama. Id. at 257. It further asserted
that state authorities padlocked the dining hall “in
an attempt to starve [the students] into submission.”
Id. Various claims in the ad were inaccurate, and The
Times eventually published a retraction. Id. at 261.
Sullivan sued, alleging the advertisement’s false
statements libeled him because, as commissioner of
public affairs, he supervised the police department.
Id. at 256, 262. After just two hours and twenty
minutes of deliberation, an Alabama jury awarded
Sullivan $500,000 (the largest libel judgment in
Alabama history), and the state Supreme Court
affirmed. Anthony Lewis, Make No Law: The
Sullivan Case and the First Amendment 33, 45
(1991).
When the Supreme Court reversed, its decision
was seen as a “triumph for civil rights and racial
equality.” E.g., Geoffrey Stone, New York Times Co.
v. Sullivan, in The Oxford Companion to the Supreme
Court of the United States 586–87 (1992). The point
of these suits had less to do with repairing reputations
and more to do with deterring the northern press
from covering civil rights abuses. Southern officials,
as Anthony Lewis succinctly explains, had thus
twisted “the traditional libel action . . . into a state
political weapon to intimidate the press”:

87596 • WIDENER• APPENDIX A

AL 7/7/21

42a
The aim was to discourage not false but true
accounts of libel under a system of white
supremacy: stories about men being lynched
for trying to vote, about cynical judges using
the law to suppress constitutional rights,
about police chiefs turning attack dogs on
men and women who wanted to drink a
Coke at a department-store lunch counter. It
was to scare the national press—newspapers,
magazines, the television networks—off the
civil rights story.
Lewis, Make no Law at 35.
Indeed, the day after the Alabama court’s verdict,
the Alabama Journal (a Montgomery paper)
celebrated the result. An editorial trumpeted that the
case would cause the “reckless publishers of the
North . . . to make a re-survey of their habit of
permitting anything detrimental to the South and its
people to appear in their columns.” Id. at 34. “The
Times was summoned more than a thousand miles to
Montgomery to answer for its offense. Other
newspapers and magazines face the same prospect.”
Id. Even before the Supreme Court issued the Times
decision, a second suit filed by a mayor—based on the
same ad—had already resulted in another $500,000
verdict against The Times. Id. at 35. And three
additional suits remained pending. Id. CBS had
similarly been sued for $1.5 million over a televised
program that depicted the difficulties of African
Americans in registering to vote. Id. at 36. By 1964,
southern officials had filed almost $300 million in
libel suits against the northern press. Id.

87596 • WIDENER• APPENDIX A

AL 7/7/21

43a
One can understand, if not approve, the Supreme
Court’s policy-driven decision.7 There can be no doubt
that the New York Times case has increased the
power of the media. Although the institutional press,
it could be argued, needed that protection to cover
the civil rights movement, that power is now abused.
In light of today’s very different challenges, I doubt
the Court would invent the same rule.
As the case has subsequently been interpreted, it
allows the press to cast false aspersions on public
figures with near impunity.8 It would be one thing if
this were a two-sided phenomenon. Cf. New York
Times, 376 U.S. at 305 (Goldberg, J., concurring)
(reasoning that the press will publish the responses
of public officials to reports or accusations). But see
Suzanne Garment, The Culture of Mistrust in
American Politics 74–75, 81–82 (1992) (noting that
the press more often manufactures scandals involv7

It should be noted that precisely what should have
been done is a matter of debate. See, e.g., Richard A.
Epstein, Was New York Times v. Sullivan Wrong, 53 U. CHI .
L. REV . 782, 791 (1986); see also Lewis Green, The New York
Times Rule: Judicial Overkill 12 VILLANOVA L. REV . 725,
735 (1967).
8

See Dun & Bradstreet, Inc. v. Greenmoss Builders, Inc.,
472 U.S. 749, 769 (1985) (White, J., concurring):
The New York Times rule thus countenances two
evils: first, the stream of information about
public officials and public affairs is polluted and
often remains polluted by false information; and
second, the reputation and professional life of the
defeated plaintiff may be destroyed by falsehoods
that might have been avoided with a reasonable
effort to investigate the facts. In terms of the
First Amendment and reputational interests at
stake, these seem grossly perverse results.

87596 • WIDENER• APPENDIX A

AL 7/7/21

44a
ing political conservatives). The increased power of
the press is so dangerous today because we are very
close to one-party control of these institutions. Our
court was once concerned about the institutional
consolidation of the press leading to a “bland and
homogenous” marketplace of ideas. See Hale v. FCC,
425 F.2d 556, 562 (D.C. Cir. 1970) (Tamm, J.,
concurring). It turns out that ideological consolidation
of the press (helped along by economic consolidation)
is the far greater threat.9
Although the bias against the Republican Party—
not just controversial individuals—is rather shocking
today, this is not new; it is a long-term, secular trend
going back at least to the ’70s.10 (I do not mean to
defend or criticize the behavior of any particular
politician). Two of the three most influential papers
(at least historically), The New York Times and The
Washington Post, are virtually Democratic Party
broadsheets. And the news section of The Wall Street
Journal leans in the same direction. The orientation
9

We once explained why major American cities lost
their second mainframe papers due to market forces. See
generally Michigan Citizens for an Indep. Press v.
Thornburgh, 868 F.2d 1285, 1288 (D.C. Cir.), aff’d, 493 U.S.
38 (1989). That second paper was sometimes right of center,
e.g., The New York Herald Tribune and The Washington
Star, leaving the residual paper in a local monopoly position.
As large American cities became heavily Democratic Party
bastions, so too did the local dominant paper. See Gentzkow
and Shapiro, What Drives Media Slant? Evidence from U.S.
Daily Newspapers, 78 ECONOMETRICA 35 (Jan. 2010).
10

Who can forget Candy Crowley’s debate moderation? See,
e.g., Noah Rothman, Candy Crowley’s Debate Moderation
Exemplifies Why Americans Do Not Trust Their Media, Mediaite
(Oct. 17, 2012); Dylan Byers, Crowley fact-checks Mitt, Politico
(Oct. 17, 2012).

87596 • WIDENER• APPENDIX A

AL 7/7/21

45a
of these three papers is followed by The Associated
Press and most large papers across the country (such
as the Los Angeles Times, Miami Herald, and Boston
Globe). Nearly all television—network and cable—is
a Democratic Party trumpet. Even the governmentsupported National Public Radio follows along.
As has become apparent, Silicon Valley also has an
enormous influence over the distribution of news.
And it similarly filters news delivery in ways favorable to the Democratic Party. See Kaitlyn Tiffany,
Twitter Goofed It, The Atlantic (2020) (“Within a few
hours, Facebook announced that it would limit [a
New York Post] story’s spread on its platform while
its third-party fact-checkers somehow investigated
the information. Soon after, Twitter took an even
more dramatic stance: Without immediate public
explanation, it completely banned users from posting
the link to the story.”).11
It is well-accepted that viewpoint discrimination
“raises the specter that the Government may effectively
drive certain ideas or viewpoints from the marketplace.” R.A.V. v. City of St. Paul, Minn., 505 U.S. 377,
387 (1992). But ideological homogeneity in the media—
11

Of course, I do not take a position on the legality of
big tech’s behavior. Some emphasize these companies are
private and therefore not subject to the First Amendment.
Yet—even if correct—it is not an adequate excuse for big
tech’s bias. The First Amendment is more than just a legal
provision: It embodies the most important value of American
Democracy. Repression of political speech by large institutions
with market power therefore is—I say this advisedly—
fundamentally un-American. As one who lived through the
McCarthy era, it is hard to fathom how honorable men and
women can support such actions. One would hope that someone,
in any institution, would emulate Margaret Chase Smith.

87596 • WIDENER• APPENDIX A

AL 7/7/21

46a
or in the channels of information distribution—risks
repressing certain ideas from the public consciousness
just as surely as if access were restricted by the
government.
To be sure, there are a few notable exceptions to
Democratic Party ideological control: Fox News, The
New York Post, and The Wall Street Journal’s editorial
page. 12 It should be sobering for those concerned
about news bias that these institutions are controlled
by a single man and his son. Will a lone holdout remain
in what is otherwise a frighteningly orthodox media
culture? After all, there are serious efforts to muzzle
Fox News. And although upstart (mainly online) conservative networks have emerged in recent years,
their visibility has been decidedly curtailed by Social
Media, either by direct bans or content-based censorship.
There can be little question that the overwhelming
uniformity of news bias in the United States has an
enormous political impact.13 That was empirically
and persuasively demonstrated in Tim Groseclose’s
insightful book, Left Turn: How Liberal Media Bias
Distorts the American Mind (2011). Professor
Groseclose showed that media bias is significantly to
the left. Id. at 192–197; see also id. at 169–77. And
this distorted market has the effect, according to
Groseclose, of aiding Democratic Party candidates by
8–10% in the typical election. Id. at ix, 201–33. And
now, a decade after this book’s publication, the press
12

Admittedly, a number of Fox’s commentators lean as
far to the right as the commentators and reporters of the
mainstream outlets lean to the left.
13

The reasons for press bias are too complicated to address
here. But they surely relate to bias at academic institutions.

87596 • WIDENER• APPENDIX A

AL 7/7/21

47a
and media do not even pretend to be neutral news
services.
It should be borne in mind that the first step taken
by any potential authoritarian or dictatorial regime
is to gain control of communications, particularly the
delivery of news. It is fair to conclude, therefore, that
one-party control of the press and media is a threat
to a viable democracy. It may even give rise to countervailing extremism. The First Amendment guarantees
a free press to foster a vibrant trade in ideas. But a
biased press can distort the marketplace. And when the
media has proven its willingness—if not eagerness—
to so distort, it is a profound mistake to stand by
unjustified legal rules that serve only to enhance the
press’ power.

87596 • WIDENER• APPENDIX A

AL 7/7/21

48a
Appendix B
UNITED STATES DISTRICT COURT
FOR THE D ISTRICT OF C OLUMBIA

__________
Civil Action No. 18-2109 (RMC)

__________
C HRISTIANA T AH , et al.,
Plaintiffs,
—v.—
G LOBAL W ITNESS P UBLISHING , I NC ., et al.,
Defendants.

__________
MEMORANDUM OPINION
In 2013, a high-level team of officials of the
Government of Liberia helped negotiate the
successful sale of off-shore oil drilling rights to the
ExxonMobil Corporation. The Liberian government
then awarded bonuses of $35,000 from the proceeds
to senior members of the negotiating team, including
former Liberian Minister of Justice and Attorney
General Christiana Tah and former Chief Executive
Officer of the National Oil Company of Liberia
Randolph McClain. Corruption-watchdog Global
Witness of London and its U.S. arm, Global Witness
Publishing, Inc., issued a report that is alleged to
imply that Minister Tah and Mr. McClain had

87596 • WIDENER• APPENDIX B

AL 7/7/21

49a
effectively received bribes to facilitate the sale.
Minister Tah and Mr. McClain sue the two Global
Witness entities for defamation. Although the Court
agrees that the report implies bribery, and takes as
true that bribery did not occur, the contents of the
report are protected speech under the First
Amendment and cannot sustain a defamation claim.
Accordingly, the Court will dismiss the Complaint.
I. BACKGROUND
A. The Block 13 Negotiations
“Block 13” is rectangular plot of territory in the
ocean waters off the coast of Liberia. In the belief
that Block 13 held valuable oil reserves, the National
Oil Company of Liberia (NOCAL), the Liberian
government-owned corporation responsible for
awarding oil licenses, agreed in 2007 to license the
development of Block 13 to Broadway Consolidated
PLC (Broadway Consolidated), for which Liberia
would receive a share of the oil production. Broadway
Consolidated failed to make headway in the work
over the next three years, however, so in 2010 Liberia
sought another buyer to take over the license on
terms more favorable to the country. ExxonMobil
expressed interest.
Negotiations between ExxonMobil and Liberia
were conducted on Liberia’s behalf by the Hydrocarbon Technical Committee (HTC or Committee), a
governmental body which was created by statute “to
superintend the negotiations between entities such
as Exxon and the government of Liberia, through its
state-owned oil company NOCAL.” Compl. [Dkt. 1] ¶ 24.
At the time of the negotiations, the HTC had six

87596 • WIDENER• APPENDIX B

AL 7/7/21

50a
members, including Presidential Legal Advisor
Seward M. Cooper and the Plaintiffs, Minister Tah
and Mr. McClain. Mr. McClain served as its Chair.
Exxon was unwilling to acquire drilling rights in
Block 13 directly from Broadway Consolidated, in
part due to rumors of corruption surrounding the
original license. However, in 2013 Exxon agreed to
an arrangement whereby a third party, Canadian
Overseas Petroleum Limited (COPL), purchased the
license from Broadway Consolidated and Exxon
purchased it from COPL, with an additional payment
directly to Liberia. In this manner, Exxon paid $120
million for Block 13 with approximately $50 million
going to Liberia itself. Plaintiffs allege that “the
Liberian government saw the Exxon deal as an historic
victory for the Liberian people, in which the government of Liberia would for the first time receive a
substantial payment for the sale of extraction rights.”
Id. ¶ 22.
After the negotiations with Exxon were finalized,
Liberian President Ellen Johnson Sirleaf instructed,
unsolicited, NOCAL to pay bonuses to the government employees who had participated. Id. ¶ 25. Mr.
McClain asked Mr. Cooper and Minister Tah, who
are both lawyers, if such payments were lawful. Both
agreed that they were. Thereafter, the Board of
Directors of NOCAL adopted a resolution directing
payment of $500,000 in bonuses, made from the
proceeds of the negotiations, to HTC and NOCAL
officials and staff. Payments were made to over 140
employees, including office staff, custodial workers,
and drivers. However, the largest bonuses, $35,000
each, went to the six members of the HTC.

87596 • WIDENER• APPENDIX B

AL 7/7/21

51a
B. The Global Witness Report
Global Witness is a non-profit, non-governmental
organization based in London which conducts
operations in the United States through its offices in
Washington, D.C., known as Global Witness Publishing, Inc. Global Witness specializes in “global witness
investigation” and its mission centers on “exposing
economic networks behind conflict, corruption, and
environmental destruction.” Id. ¶ 4-5.
In March 2018, Global Witness published an
investigative report titled “Catch me if you can:
Exxon’s complicity in Liberian oil sector corruption
and how its Washington Lobbyists fight to keep oil
deals secret.” Compl., Ex. A, Global Witness, Catch
me if you can (2018) (Report) [Dkt. 1-1]. The Report,
which remains available online, was 35 pages long
and included 125 footnotes documenting the 2013
sale of a license to Exxon to develop Block 13, as well
as the history of Block 13 more generally. The Report
used the sale of Block 13 as a case study to discuss
the value of Section 1504 of the Dodd-Frank Act,
Pub. L. No. 111-203, 124 Stat. 1376 (2010), a law of
the United States. Section 1504 requires oil, gas, and
mining companies to disclose payments made to
foreign governments—the types of disclosures which
Global Witness says make the investigation of the
Block 13 sale possible and which companies like
Exxon oppose. See Report at 11.
The Report presented a less-than-innocent version
of the history and licensing of Block 13. According to
Global Witness, Block 13 was “born in the shadows,”
id., and the Report suggested that the “untested”
Broadway Consolidated was awarded the initial
Block 13 license “because the company was likely

87596 • WIDENER• APPENDIX B

AL 7/7/21

52a
part-owned by government officials with the power to
influence the award of oil licenses.” Id. at 12. Global
Witness believed this partial ownership by Liberian
government officials continued through the sale of
Block 13 to COPL. The Report further asserted that
the licensing of Block 13 to Broadway Consolidated
was ratified by the Liberian legislature only after
NOCAL spent $118,400 in lobbying fees in 2006 and
2007, which Liberia’s General Auditing Commission
later determined were actually bribes for favorable
votes. Id. at 16.
According to the Report, when Exxon became
interested in acquiring the license to develop Block
13, Exxon chose to structure the acquisition through
COPL as an intermediary because it had “concern over
issues regarding US anti-corruption laws” and believed
that “Liberian shareholders/beneficial owners of
[Broadway Consolidated] may have been government
officials at the time of the allocation.” Id. at 20. The
Report opined that “Exxon proposed to use COPL as
a go-between that would, Exxon appears to have
thought, shield it from any US legal risks posed by
Block 13.” Id. The Report described the complex
movement of funds and property interests constituting
Exxon’s purchase of development rights in Block 13.
It also stated that COPL’s relationship with
Broadway Consolidated may not have been fully at
arm’s-length and called for an investigation of Exxon
by authorities in the United States, Canada, the
United Kingdom, and Liberia to determine whether
Exxon had violated any anti-corruption laws. Id. at
27-28.
In addressing the Liberian government’s role in
the 2013 license transfers, the Report stated that
NOCAL made “unusual, large payments” to Liberian

87596 • WIDENER• APPENDIX B

AL 7/7/21

53a
government officials “in connection with the 2013
award of Block 13” and emphasized those payments
made to members of the HTC, connecting the relative
size of the payments, the definition of bribery in
Liberian law, and NOCAL’s history of bribery
payments in 2006 and 2007. Id. at 30. The Report
also included a chart prepared by Global Witness
that identified the roles six HTC and NOCAL officers
played in the negotiations with Exxon and naming
each of them.
Global Witness sought pre-publication comments
from the HTC and NOCAL officials; excerpts of those
comments, which denied that the bonuses were
bribes, were included in the Report. The Report
acknowledged that “Global Witness has no evidence
that Exxon directed NOCAL to pay Liberian officials,
nor that Exxon knew such payments were occurring,”
id. at 31, and conceded that over 140 staff members
received such bonuses, but concluded:
The vast majority of these payments were
smaller than those made to HTC members
by two orders of magnitude. Also, unlike
payments to the HTC members, these staff
payments were not made to people who
signed the Exxon deal.
Id. at 32. Among a host of recommendations, the
Report called for Liberian authorities to investigate
“whether NOCAL violated Liberian law when it
distributed payments in 2013 to officials who signed
the Block 13 license,” and for the Liberian government to “review its policies on bonuses paid to staff.”
Id. at 35.

87596 • WIDENER• APPENDIX B

AL 7/7/21

54a
C. Report Aftermath
Shortly thereafter, several news organizations,
including Newsweek and Front Page Africa, published
summaries of the Report with headlines such as “Rex
Tillerson’s Exxon Mobil Involved in Corrupt Oil
Deals in Liberia, Investigation Reveals.” Compl. ¶ 72
(quoting Christina Maza, Rex Tillerson’s Exxon
Mobil Involved in Corrupt Oil Deals in Liberia,
Investigation Reveals, Newsweek, Mar. 29, 2018,
available at http://bit.ly/2kCN5IU). As a result of the
Report, the new President of Liberia, George Manneh
Weah, appointed a Special Presidential Committee to
investigate. Id. ¶ 74 (citing Report of the Special
Presidential Committee Appointed to Examine the
March 2018 Global Witness Report of the National
Oil Company of Liberia (NOCAL) (2018) (Special
Presidential Committee Report)). The Special
Presidential Committee, which issued its own
findings in May 2018, understood its mandate to be:
to examine the allegations of March 2018,
made by Global Witness (GW), . . . that in
negotiating the Concession [license]
agreement between ExxonMobil and the
Government of Liberia for Liberia’s offshore
Oil Block LB13, some prominent Liberian
government officials who led the negotiation
received bribe in amounts ranging up to US
$35,000 each.
Id. ¶ 75. It determined that the bonus payments were
not bribes under Liberian law. Id. ¶ 81. However, the
Special Presidential Committee recommended that
the bonus payments to the six members of the HTC
be returned. Id. ¶ 83. Plaintiffs believe there is no
legal basis to require them to return the bonuses and
have not done so. Id.

87596 • WIDENER• APPENDIX B

AL 7/7/21

55a
Based on the negative publicity following the
Report, Plaintiffs filed suit in this Court alleging
Defamation per se (Count I) and False Light Invasion
of Privacy (Count II). Global Witness moved to
dismiss. The matter is now ripe.1
II. LEGAL STANDARDS
A. Motion to Dismiss
A motion to dismiss for failure to state a claim
pursuant to Federal Rule of Civil Procedure 12(b)(6)
challenges the adequacy of a complaint on its face.
See Fed. R. Civ. P. 12(b)(6). A complaint must be
sufficient “to give a defendant fair notice of what the
. . . claim is and the grounds upon which it rests.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(internal citations omitted). To survive a motion to
dismiss, a complaint must contain sufficient factual
information, accepted as true, to “state a claim to
relief that is plausible on its face.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Twombly, 550 U.S.
at 555). A court must assume the truth of all wellpleaded factual allegations and construe reasonable
inferences from those allegations in favor of the
plaintiff. See Sissel v. Dep’t of Health & Human
Servs., 760 F.3d 1, 4 (D.C. Cir. 2014). However, a
court need not accept inferences drawn by a plaintiff
if such inferences are not supported by the facts set
out in the complaint. See Kowal v. MCI Commc’ns
Corp., 16 F.3d 1271, 1276 (D.C. Cir. 1994). Further, a
1

See Defs.’ Mot. to Dismiss [Dkt. 11]; Pls.’ Resp. to Defs.’
Mot. to Dismiss for Failure to State a Claim (Opp’n) [Dkt.
17]; Reply Mem. in Supp. of Defs.’ Mot. to Dismiss for Failure
to State a Claim (Reply) [Dkt. 18].

87596 • WIDENER• APPENDIX B

AL 7/7/21

56a
court need not accept legal conclusions set forth in a
complaint. See Iqbal, 556 U.S. at 678.
B. Applicable Law2
“To state a cause of action for defamation, [a]
plaintiff must allege and prove four elements: (1)
that the defendant made a false and defamatory
statement concerning the plaintiff; (2) that the
defendant published the statement without privilege
to a third party; (3) that the defendant’s fault in
publishing the statement amounted to at least
negligence; and (4) either that the statement was
actionable as a matter of law irrespective of special
harm or that its publication caused the plaintiff
special harm.” Oparaugo v. Watts, 884 A.2d 63, 76
(D.C. 2005) (internal quotations omitted).3 Further,
under the First Amendment, public figures suing for
defamation must “demonstrate by clear and
convincing evidence that the defendant published the
defamatory falsehood with ‘actual malice,’ that is,
with ‘knowledge that it was false or with reckless
disregard of whether it was false or not.’” Liberty
Lobby, Inc. v. Dow Jones & Co., Inc., 838 F.2d 1287,
1292 (D.C. Cir. 1988) (quoting N.Y. Times v.
Sullivan, 376 U.S. 254, 280 (1964)).
2

The Court has diversity jurisdiction over this case
because Plaintiffs are residents of Maryland and North
Carolina, Global Witness operates out of London and D.C.,
and the amount in controversy exceeds $75,000. See 28
U.S.C. § 1332. Venue is proper because D.C. is “a district in
which any defendant is subject to the court’s personal
jurisdiction.” 28 U.S.C. § 1391(b)(3).
3

The parties do not dispute that D.C. substantive law
governs this case. Cf. Weyrich v. New Republic, Inc., 235 F.3d
617, 626-27 (D.C. Cir. 2001) (discussing choice of law in a
defamation action brought in a diversity case in D.C.).

87596 • WIDENER• APPENDIX B

AL 7/7/21

57a
“To succeed on a claim of false light invasion of
privacy, a plaintiff must show: ‘(1) publicity (2) about
a false statement, representation, or imputation (3)
understood to be of and concerning the plaintiff, and
(4) which places the plaintiff in a false light that
would be offensive to a reasonable person.’” Armstrong
v. Thompson, 80 A.3d 177, 188 (D.C. 2013) (quoting
Kitt v. Capital Concerts, Inc., 742 A.2d 856, 859 (D.C.
1999)). “These elements are similar to those involved
in analysis of a defamation claim, and ‘a plaintiff
may not avoid the strictures of the burdens of proof
associated with defamation by resorting to a claim of
false light invasion.’” Id. (quoting Moldea v. N.Y.
Times, 22 F.3d 310, 319 (D.C. Cir. 1988)). “In fact,
where the plaintiff rests both his defamation and
false light claims on the same allegations, . . . the
claims will be analyzed in the same manner.”
Blodgett v. Univ. Club, 930 A.2d 210, 223 (D.C.
2007).
III. ANALYSIS
Plaintiffs allege that Global Witness’ Report
defamed them by accusing them of accepting bribes
in connection with the negotiations with Exxon that
led to that corporation’s acquisition of a license to
develop Block 13. Plaintiffs acknowledge that the
Report never explicitly accused them of taking
bribes. However, they argue that “the totality of the
meaning conveyed, through headlines, sub-headings,
text and graphics” clearly implied that they took
bribes and that reasonable readers could come away
with that understanding. Compl. ¶ 34.
“Whether a statement is capable of defamatory
meaning is a question of law, but ‘[i]t is only when

87596 • WIDENER• APPENDIX B

AL 7/7/21

58a
the court can say that the publication is not
reasonably capable of any defamatory meaning and
cannot be reasonably understood in any defamatory
sense that it can rule as a matter of law, that it was
not libelous.’” Weyrich, 235 F.3d at 627 (quoting
White v. Fraternal Order of Police, 909 F.2d 512, 518
(D.C. Cir. 1990)). Moreover, implied defamation
comes with its own particular complications. “District
of Columbia law . . . clearly contemplates the
possibility that a defamatory inference may be
derived from a factually accurate news report.” S. Air
Transp., Inc. v. Am. Broad. Cos., 877 F.2d 1010, 1014
(D.C. Cir. 1989). But “[b]ecause the Constitution
provides a sanctuary for truth, a libel-by-implication
plaintiff must make an especially rigorous showing
where the expressed facts are literally true.” Guilford
Transp. Indus., Inc. v. Wilner, 760 A.2d 580 (D.C.
2000) (quoting Chapin v. Knight-Ridder, Inc., 993
F.2d 1087, 1092-93 (4th Cir. 1993)). Thus, “if a
communication, viewed in its entire context, merely
conveys materially true facts from which a
defamatory inference can reasonably be drawn, the
libel is not established.” White, 909 F.2d at 520.
However, “if the communication, by the particular
manner or language in which the true facts are
conveyed, supplies additional, affirmative evidence
suggesting that the defendant intends or endorses the
defamatory inference, the communication will be
deemed capable of bearing that meaning.” Id.; see
also Guilford Transp., 760 A.2d at 580 (“The
language must not only be reasonably read to impart
the false innuendo, but it must also affirmatively
suggest that the author intends or endorses the
inference.”).

87596 • WIDENER• APPENDIX B

AL 7/7/21

59a
A. Defamatory Implications of the Report
Although Plaintiffs concede that the Report
contained only accurate facts and never specifically
described the bonuses as bribes, the Court finds that
the Report could reasonably be interpreted to imply
that the bonuses were bribes and that the implication
was conveyed by the manner in which Global Witness
presented its investigation.
The implication began with the cover page. The
title “Catch me if you can” clearly suggested wrongdoing, and specifically wrongdoing for which there is
not yet enough evidence to convict. Below the title
was an image of a businessman running away,
already partially off the page, as if almost beyond
capture, followed by the caption “Exxon’s complicity
in Liberian oil sector corruption and how its
Washington lobbyists fight to keep oil deals secret.”
Report (cover page). The Report’s first page further
framed its contents: “This is a story of bribery,
suspected secret shareholders, and an audacious
attempt by oil giant Exxon to bypass US anticorruption laws.” Id. at 6. Whatever other details the
Report offered, these headlines provided the context
and conclusions of its authors at Global Witness. Cf.
Afro-Am. Publ’g Co. Jaffe, 366 F.2d 649, 655 (D.C.
Cir. 1966) (finding false statements in a newspaper
caption “were critical in the total impact of the
article”); id. (“The article contained other items that
were true, but in the setting already described these
only reinforced the defamatory impression.”).
The Report further framed its discussion of the
Block 13 negotiations as evidence of the value of
transparency laws covering the oil, gas, and mining
industries. Such laws were praised because they

87596 • WIDENER• APPENDIX B

AL 7/7/21

60a
allowed Global Witness to see, for example, “how
much money Exxon paid to Liberia’s oil agency
NOCAL, which has a history of corruption.” Report at
9. In this way, Global Witness tied ExxonMobil’s
payments for the acquisition of rights in Block 13
with how NOCAL shared some of that money with its
negotiators, including Plaintiffs. The Report cited
“NOCAL’s tarnished track record of corrupt deals” to
explain that Global Witness “saw there was a risk of
bribery and began its investigation.” Id.
For almost 20 pages, the Report then detailed
previous corruption or concerns regarding corruption
in the oil sector in Liberia. In that specific context,
the Report opined that “[t]here are grounds to
suspect that [Broadway Consolidated] obtained Block
13 because the company was likely part-owned by
government officials with the power to influence the
award of oil licenses.” Id. at 12; see generally id. at
12-15 (describing Liberian officials’ possible
connections to Broadway Consolidated). The Report
also stated that the initial license sold to Broadway
Consolidated was ratified by the Liberian legislature
only after “NOCAL spent $118,400 to bribe members
of the Liberian legislature so that they would approve
the award.” Id. at 16. The Report cast aspersions at
Exxon’s interest in Block 13, noting suspected
“concern over issues regarding US anti-corruption
laws.” Id. at 17. Such concerns, according to the
Report, caused Exxon to develop “an ingenious escape
plan” “to use COPL as a go-between that would,
Exxon appears to have thought, shield it from any
US legal risks.” Id. at 20. The Report warned that
“Exxon’s attempt to use COPL to shield itself from
US anti-corruption laws may have been misguided,”
id. at 27, and advocated investigations by U.S. and
Liberian authorities. Id. at 29.

87596 • WIDENER• APPENDIX B

AL 7/7/21

61a
As a result, the Report did not cover the roles of
the HTC’s members, including Plaintiffs, in a
vacuum. With its context of historical corruption and
suspicions of further corruption, a reasonable reader
could have understood the heading of the section,
“Monrovia [Liberia], 2013: Awash in cash,” with the
subtitle “Some Unusual, Large Payments,” to be
referring to bribery payments in euphemistic language.
Id. at 30. If such a reasonable reader missed the
point of the titles, the contents of this section of the
Report clarified the point. For example, the Report
admitted that NOCAL described the challenged
payments to staff and the HTC as “bonuses,” but
then continued to place quotation marks around the
word bonuses, i.e., “bonuses,” and generally stated
that the payments were “called” bonuses instead of
endorsing use of that term itself. See id. at 30-32.
These linguistic choices could be understood to
distinguish between NOCAL’s use of “bonuses” to
hide “bribes,” which is what the Report inferred they
actually were. The chart prepared by Global Witness
and included in the Report tracked payments from
Exxon, by which it acquired rights to develop Block
13, to bonuses paid by NOCAL to six Liberian
officials involved in the negotiation, including
Plaintiffs. Id. at 31. The chart specifically listed the
amount of each official’s bonus and the critical role
each of them played in the negotiations, which had
the effect of literally drawing a line between Exxon’s
money, the bonuses, and the sale of the license for
Block 13. See id. at 31.
The Court finds that a reasonable reader easily
could have understood the Report to imply that the
2006-07 bribes and the 2013 HTC bonuses were of a
piece. If that were not the case, Global Witness would

87596 • WIDENER• APPENDIX B

AL 7/7/21

62a
not have needed to request and include denials of
bribery by HTC members in the Report. Id.; Compl. ¶
91 (“The letter . . . stated . . . “we believe that the
payment made by NOCAL to you was most likely a
bribe.”). If that were not the case, the Report would
have had no reason to advocate for an investigation
of “payments to officials by NOCAL in 2013 to
determine whether any Liberian laws may have been
broken.” Report at 32.
Global Witness argues that the Report explicitly
negated any inference that Plaintiffs accepted bribes
because it expressly stated that “Global Witness has
no evidence that Exxon directed NOCAL to pay
Liberian officials, nor that Exxon knew such
payments were occurring.” Id. at 31. First, of course,
this statement was about ExxonMobil and not
NOCAL, the actual payor. Second, it did not negate
the inference that ExxonMobil’s money was, in part,
paid as bribes to the NOCAL representatives who
signed the lease agreement. However, this statement
did admit that the Global Witness suspicions and
calls for investigations of ExxonMobil and NOCAL
lacked any evidence that the former had involvement
in monies paid to employees of the latter. At best, it
might have been read to leave the question open as to
why NOCAL paid such monies to its own personnel.
Global Witness also argues that the Report openly
identified bribes associated with other payments in
Liberia and that, in the tradition of expressio unius,
the omission of similar language from descriptions of
the payments to Plaintiffs implied that they were not
bribes. The attempted distinction fails to persuade:
whenever the Report explicitly described bribery, it
was only after other organizations, such as
components of the Liberian government itself, had

87596 • WIDENER• APPENDIX B

AL 7/7/21

63a
already reached that conclusion. See, e.g., id. at 30
(“These 2006 and 2007 payments have been classified
as bribes by the Liberian Government’s General
Auditing Commission.”). The conclusions by others
that bribery occurred in other transactions does not
diminish the import of the Report that there was
bribery—either by NOCAL, Exxon, or both—in
connection with the post-negotiation payments to
Liberia’s chief representatives.
Finally, Global Witness argues that it is only
asking “whether the payments to Plaintiffs were
illegal,” and that questions cannot imply defamatory
meaning. Reply at 7; see Abbas v. Foreign Policy
Grp., LLC, 783 F.3d 1328, 1338 (D.C. Cir. 2015) (“[I]t
is generally settled as a matter of defamation law in
other jurisdictions that a question, ‘however
embarrassing or unpleasant to its subject, is not
accusation.’”) (quoting Chapin, 993 F.2d at 1094). But
see id. at 1339 (“[A] question’s wording or tone or
context sometimes may be read as implying the
writer’s answer to that question.”). But Global
Witness is clearly doing more than “just asking
questions” when it calls for an official investigation
by governmental bodies; it reasonably implies that
there is evidence to justify an investigation of
criminal liability, and thereby potential criminal
liability itself. Further, capping the Report with a
question only protects the question, not the other
statements that imply bribery.
The most compelling evidence that the Report
could reasonably be read to suggest bribery is that
the Liberian government actually understood the
Report that way. As the Special Presidential
Committee put it:

87596 • WIDENER• APPENDIX B

AL 7/7/21

64a
His Excellency, George Manneh Weah,
President of Liberia, constituted a fivemember Special Presidential Committee
(SPC) to examine the allegations . . . made by
Global Witness (GW) . . . alleging . . . that in
negotiating the Concession agreement
between ExxonMobil and the Government of
Liberia . . . , some prominent Liberian
government officials who led the negotiation
received bribe in amounts ranging up to US
$35,000 each.
Compl. ¶ 3 (quoting Special Presidential Committee
Report at 3) (emphasis omitted). Moreover, the
Special Presidential Committee articulated its
mandate as a duty to “[d]etermine if the individuals
specifically and collaterally named in the Report
indeed received perquisite, emoluments or benefits,
directly or indirectly, on account of any duty required
of them by the Government and, if yes, determine
whether or not the amount so paid and received
constitutes Bribe under our law.” Id. ¶ 76 (quoting
Special Presidential Committee Report at 4)
(emphasis omitted). Finally, the Special Presidential
Committee summarized the Report as such:
Clearly, from the preamble, the Report is threeprong:
1. The story about Bribery, apparently,
involving Liberian officials;
2. Efforts by Exxon to by-pass US AntiCorruption Law . . . ; and
3. About how the United States can support
efforts to mitigate corruption in all dealings involving its national corporations
and the local countries where these
companies operate.

87596 • WIDENER• APPENDIX B

AL 7/7/21

65a
Id. ¶ 77 (quoting Special Presidential Committee
Report at 11) (emphasis added).4
Global Witness notes that “[t]he test . . . is not
whether some actual readers were misled, but whether
the hypothetical reasonable reader could be (after
time for reflection).” Farah v. Esquire Magazine, 736
F.3d 528, 537 (D.C. Cir. 2013) (citing Pring v.
Penthouse Int’l, Ltd., 695 F.2d 438, 442-43 (10th Cir.
1982) and New Times v. Isaacks, 146 S.W.3d 144, 151
(Tex. 2004)); see also Lyrissa Barnett Lidsky, Nobody’s
Fools: The Rational Audience as First Amendment
Ideal, 2010 U. Ill. L. Rev. 799, 842 (2010) (“[T]he
[Supreme] Court clearly endorsed the principle that
speakers should not be held liable for ‘mis-readings’
of their speech by idiosyncratic or unsophisticated
audience members.”) (citing Greenbelt Co-op. Pub.
Ass’n v. Bresler, 398 U.S. 6 (1970)). Global Witness
correctly cites the test but overlooks that a publication
must also be read “in the sense in which it would be
understood by the readers to whom it was addressed.”
Afro-Am. Publ’g, 366 F.2d at 655; see also Farah, 736
F.3d at 537 (considering the defamatory statements’
4

Global Witness does not address the Special
Presidential Committee Report and, instead, traces “the first
appearance in the press of any suggestion that the Report
implied bribery . . . [to] a letter written by Minister Tah
herself.” Reply at 8. But Minister Tah’s letter responded to
Global Witness’ request for comment which explicitly
accused her of accepting a bribe, see Compl. ¶ 91 (“The letter
. . . stated . . . ‘we believe that the payment made by NOCAL
to you was most likely a bribe.’”), and excerpts from her
letter were quoted in the Report. See Report at 30 (“‘I did not
receive money or an offer to pay money from Exxon Mobil for
the award of the oil contract.’”). Global Witness’ argument
that Minister Tah is herself responsible fails because Global
Witness clearly originated the accusation itself.

87596 • WIDENER• APPENDIX B

AL 7/7/21

66a
meaning to a publisher’s reader base). In that regard,
although not dispositive, the considered views of the
investigatory committee formed by the Government
of Liberia—which investigation the Report had urged—
is insightful. Cf. Vasquez v. Whole Foods Market,
Inc., 302 F. Supp. 3d 36, 64 (D.D.C. 2018) (“A
plaintiff can rely upon extrinsic evidence to show
that listeners understood the statements to pertain to
the plaintiff.”). In the face of the Special Presidential
Committee Report, there is evidence beyond, and
supportive of, what a hypothetical reasonable Liberian
official might have understood the Report to mean.
For the reasons above, the Court concludes that
Global Witness’ Report made a defamatory statement
concerning Plaintiffs.
B. Actual Malice
Global Witness argues that even if statements in
the Report were defamatory, those statements cannot
form the basis of a defamation claim because they
were not published with “actual malice” towards
Minister Tah or Mr. McClain. This defense is based
upon the First Amendment principle that public
officials5 who sue for defamation must “demonstrate
by clear and convincing evidence that the defendant
published the defamatory falsehood with ‘actual
5

Global Witness argues that as high-ranking government officials Plaintiffs qualify as public officials. See Mem.
at 34; cf. Rosenblatt v. Baer, 383 U.S. 75, 85 (1966) (“[T]he
public official designation applies at the very least to those
among the hierarchy of government employees who have, or
appear to the public to have, substantial responsibility over
the conduct of government affairs.”). Plaintiffs do not contest
this designation and have pled actual malice. See, e.g.,
Compl. ¶¶ 84, 86.

87596 • WIDENER• APPENDIX B

AL 7/7/21

67a
malice,’ that is, with ‘knowledge that it was false or
with reckless disregard of whether it was false or
not.’” Liberty Lobby, 838 F.2d at 1292 (quoting
Sullivan, 376 U.S. at 280). “The standard of actual
malice is a daunting one.” McFarlane v. Esquire
Magazine, 74 F.3d 1296, 1308 (D.C. Cir. 1996). A
plaintiff must allege facts that, if proven, provide
“clear and convincing evidence” that “would ‘permit
the conclusion that the defendant in fact entertained
serious doubts as to the truth of his publication.’”
McFarlane v. Sheridan Square Press, Inc., 91 F.3d
1501, 1512 (D.C. Cir. 1996) (quoting St. Amant v.
Thompson, 390 U.S. 727, 731 (1968)). When a
plaintiff alleges actual malice based only upon
circumstantial evidence, “the plaintiff must show, by
clear and convincing evidence, that when the
defendants published the alleged defamations they
were subjectively aware that it was highly probable
that the story was ‘(1) fabricated; (2) so inherently
improbably that only a reckless person would have
put [it] in circulation; or (3) based wholly on . . . some
other source that appellees had obvious reasons to
doubt.’” Lohrenz v. Donnelly, 350 F.3d 1272, 1283
(D.C. Cir. 2003) (quoting Tavoulareas v. Piro, 817
F.2d 762, 788-98 (D.C. Cir. 1987)).
Plaintiffs advance several interlocking theories to
support the allegation of actual malice which, in
summary, contend that Global Witness had a preconceived story line charging Exxon with corrupt
foreign dealings, which it pursued without regard to
Plaintiffs. Cf. Harris v. City of Seattle, 152 Fed.
App’x. 565, 568 (9th Cir. 2005) (“Thus, ‘evidence that
a defendant conceived a story line in advance of an
investigation and then consciously set out to make
the evidence conform to the preconceived story is

87596 • WIDENER• APPENDIX B

AL 7/7/21

68a
evidence of actual malice, and may often prove to be
quite powerful evidence.’”) (quoting Rodney A.
Smolla, 1 Law of Defamation § 3:71 (2005)).
In this regard, Plaintiffs assert that Global Witness
“was already determined to publish a sensational
account accusing Exxon of paying bribes in order to
secure the purchase of Block 13.” Opp’n at 13. The
assertion is clear but Plaintiffs offer few facts to
support it. They cite the subtitle of the Report, that
is, “Exxon’s complicity in Liberian oil sector corruption
and how its Washington lobbyists fight to keep oil
deals secret.” Compl. ¶ 87. They also cite the prominent
role given by the Report to former Exxon CEO, Rex
Tillerson, then U.S. Secretary of State, as well as the
Special Presidential Committee’s determination that
“the real object of its Report was not Liberia, but the
conduct of Exxon.” Id. ¶¶ 88-89 (quoting Special
Presidential Committee Report at 11). But the
Report’s conclusion is not evidence of its conception
and a conclusory allegation that there was “a preconceived story line is not sufficient to demonstrate
actual malice.” Jankovic v. Int’l Crisis Grp., 72 F.
Supp. 3d 284, 312 (D.D.C. 2014); see also Jankovic v.
Int’l Crisis Grp., 822 F.3d 576, 597 (D.C. Cir. 2016)
(“Evidence of . . . preconceived notions about
[plaintiff] does little to show actual malice.”).
The rest of the evidence is similarly weak.
Plaintiffs do not allege any facts establishing or
explaining why Global Witness sought to target
Secretary Tillerson. Even if they had, “evidence of ill
will or bad motives will support a finding of actual
malice only when combined with other, more
substantial evidence of a defendant’s bad faith,”
which Plaintiffs do not offer. Tavoulareas, 817 F.2d
at 795. That is, Plaintiffs do not allege facts

87596 • WIDENER• APPENDIX B

AL 7/7/21

69a
supporting a culture of reckless reporting and
disregard for the truth at Global Witness. More
specifically, Plaintiffs identify no facts that have been
molded to conform to this preconceived story line,
and an “adversarial stance is certainly not indicative
of actual malice under the circumstances where, as
here, the reporter conducted a detailed investigation.” Id.; see also id. at 796 (“[T]he First Amendment
forbids penalizing the press for encouraging its
reporters to expose wrongdoing by public corporations
and public figures.”). Indeed, Plaintiffs contest none
of the facts in the Report, even if they disagree with
the inference that may be drawn therefrom. Cf. Gertz
v. Robert Welch, Inc., 680 F.2d 527, 539 (7th Cir.
1982) (“Stanley conceived of a story line; solicited
Stang, a writer with a known and unreasonable
propensity to label persons or organizations as
Communist, to write the article; and after the article
was submitted, made virtually no effort to check the
validity of statements . . . , and in fact added further
defamatory material based on Stang’s ‘facts.’”).
Without more than is mustered here, there is not
“clear and convincing evidence” that Global Witness
was aware that its story was fabricated or too
improbable to circulate.6
Plaintiffs seek to avoid this conclusion by arguing
that Global Witness accused them of bribery when it
asked for their pre-publication comments on the
Report and then ignored their denials. Compl. ¶¶ 9197. These facts are not enough to show actual malice.
That Global Witness had arrived at its conclusion,
6

Because Plaintiffs allege implied defamation, and
because they do not contest the underlying facts, the implication of bribery must be reasonable, i.e., not so improbable as
to be reckless, or else Plaintiffs could not state a claim.

87596 • WIDENER• APPENDIX B

AL 7/7/21

70a
right or wrong, by the time it reached out for
comment and shortly before publication is commonplace and no surprise. More to the point, “publishers
need not accept ‘denials, however vehement; such
denials are so commonplace in the world of polemical
charge and countercharge that, in themselves, they
hardly alert the conscientious reporter to the likelihood of error.’” Lohrenz v. Donnelly, 350 F.3d 1272,
1285 (D.C. Cir. 2003) (quoting Harte-Hanks Comm’ns,
Inc. v. Connaughton, 491 U.S. 657, 691 n.37 (1989))
(internal quotations omitted).7 The emptiness of a
denial as evidence is particularly apt here because
not only did Plaintiffs’ denials fail to contest the facts
that are in the Report, the Report also included
excerpts from Plaintiffs’ denials and called out the
additional facts on which Plaintiffs’ denials relied.
See, e.g., Report at 30 (“Block 13 was the only oil
license awarded during the period.”); id. at 32
(acknowledging that “NOCAL also distributed
$290,000 in what the agency called bonuses to over
140 members of staff and consultants”); id. at 31
(“Global Witness has no evidence that Exxon directed
NOCAL to pay Liberian officials, nor that Exxon
knew such payments were occurring.”). Notably,
“reporting perspectives at odds with the publisher’s
own[] ‘tend[s] to rebut a claim of malice, not to
establish one.’” Lohrenz, 350 F.3d at 1286 (quoting
McFarlane, 74 F.3d at 1304).
Plaintiffs also argue that malice is evident because
the Report targeted them and none of the consultants
7

For this same reason, the HTC consultants’
corroborating denials had no more effect on evidence of
malice than Plaintiffs’ own. See Lohrenz, 350 F.3d at 1285
(corroborating denials did not give defendant “‘obvious
reasons’ to doubt the veracity of her publication”).

87596 • WIDENER• APPENDIX B

AL 7/7/21

71a
to the HTC during the negotiations, even though the
consultants also received bonuses. But the Report
stated its rationale for focusing on Plaintiffs and not
others: “unlike payments to the HTC members, these
staff payments were not made to people who signed
the Exxon deal.” Report at 32. Plaintiffs find no
caselaw to support the argument that a defendant’s
failure to accuse more persons of illegal conduct makes
an accusation against a few more or less malicious.
Moreover, Plaintiffs’ theory of actual malice is that
Global Witness had a preconceived story line
targeting Exxon, not Plaintiffs. In that context, it is
especially unclear how selectively naming Plaintiffs,
but not the consultants, contributes to that narrative.
Plaintiffs further argue that Global Witness
excluded Presidential Advisor Cooper’s name from
the Report because his advisory opinion that the
payments were legal under Liberian law would pose
“a glaring inconsistency in [the Report’s] narrative.”
Opp’n 38-39; Compl. ¶ 99. This argument lacks
persuasive weight. There are no allegations that
Global Witness knew of Mr. Cooper’s opinion.8 The
record might be read to suggest that Global Witness
acted “on the basis of . . . incomplete information”
because it did not know of Mr. Cooper’s advice to
Plaintiffs. Lohrenz, 350 F.3d at 1284. Assuming that
to be true, it “does not ‘demonstrate with clear and
convincing evidence that the defendants realized that
their statement was false or that they subjectively
entertained serious doubts as to the truth of their
statement.’” Id. (quoting Bose Corp. v. Consumers
Union of U.S., 466 U.S. 485, 511 n.30 (1984))
8

As a member of the HTC and recipient of a $35,000
bonus, for the purposes of actual malice Mr. Cooper’s legal
opinion serves the same purpose as Minister Tah’s denial.

87596 • WIDENER• APPENDIX B

AL 7/7/21

72a
(internal marks omitted); cf. St. Amant, 390 U.S. at
732 (“But to insure the ascertainment and
publication of the truth about public affairs, it is
essential that the First Amendment protect some
erroneous publications as well as true ones.”).
Lastly, Plaintiffs argue that their allegations of
malice are entitled to a liberal interpretation when
evaluated in response to a motion to dismiss. See
Opp’n at 42-44. True enough. But “actual malice does
not automatically become a question for the jury
whenever the plaintiff introduces pieces of circumstantial evidence tending to show that the defendant
published in bad faith.” Tavoulareas, 817 F.2d at 789.
“Such an approach would be inadequate to ensure
correct application of both the actual malice standard
and the requirement of clear and convincing
evidence.” Id. Without clear and convincing evidence
of actual malice, and only strands of evidence,
Plaintiffs’ pleadings fail to meet their burden.
IV. CONCLUSION
Although Plaintiffs sufficiently plead that the
Global Witness impliedly defamed them, their pleadings are insufficient to overcome First Amendment
protections for speech. Accordingly, the Court will
grant Global Witness’ Motion to Dismiss, Dkt. 11, in
its entirety. A memorializing Order accompanies this
Memorandum Opinion.
Date: September 27, 2019
[SEAL]
/s/ Rosemary M. Collyer
ROSEMARY M. COLLYER
United States District Judge

87596 • WIDENER• APPENDIX B

AL 7/7/21

